<html>
<title> - NUTRIENT POLLUTION: AN OVERVIEW OF NUTRIENT REDUCTION APPROACHES</title>
<body><pre>[Senate Hearing 112-960]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-960

                   NUTRIENT POLLUTION: AN OVERVIEW OF
                     NUTRIENT REDUCTION APPROACHES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            OCTOBER 4, 2011

                               ----------                              

 Printed for the use of the Senate Committee on Environment and Public Works
 
 
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
                                 



                  NUTRIENT POLLUTION: AN OVERVIEW OF 
                     NUTRIENT REDUCTION APPROACHES
                     
                     
                     



                                                        S. Hrg. 112-960
 
                   NUTRIENT POLLUTION: AN OVERVIEW OF
                     NUTRIENT REDUCTION APPROACHES

=======================================================================

                                HEARING

                               before the


                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  


       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-963 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                 
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York
       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
MAX BAUCUS, Montana                  JEFF SESSIONS, Alabama, Ranking 
FRANK R. LAUTENBERG, New Jersey          Member
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                DAVID VITTER, Louisiana
KIRSTEN GILLIBRAND, New York         MIKE CRAPO, Idaho
BARBARA BOXER, California, (ex       LAMAR ALEXANDER, Tennessee
    officio)                         JAMES M. INHOFE, Oklahoma, (ex 
                                         officio)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 4, 2011
                           OPENING STATEMENTS

Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...     1
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     9
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    11
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    12

                               WITNESSES

Werkheiser, William H., Associate Director for Water, U.S. 
  Geological Survey..............................................    12
    Prepared statement...........................................    14
Responses to additional questions from:
    Senator Cardin...............................................    21
    Senator Inhofe...............................................    31
Stoner, Nancy, Acting Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    44
    Prepared statement...........................................    46
Responses to additional questions from:
    Senator Boxer................................................    61
    Senator Baucus...............................................    64
    Senator Cardin...............................................    68
    Senator Inhofe...............................................    74
    Senator Vitter...............................................    82
White, Dave, Chief, Natural Resources Conservation Service, U.S. 
  Department of Agriculture......................................    85
    Prepared statement...........................................    88
Responses to additional questions from:
    Senator Cardin...............................................   100
    Senator Inhofe...............................................   106
    Senator Vitter...............................................   109
Buchsbaum, Andy, Regional Executive Director, Great Lakes Natural 
  Resources Center, National Wildlife Federation.................   221
    Prepared statement...........................................   223
Chard-Mcclary, Shellie, Division Director, Water Quality 
  Division, Oklahoma Department of Environmental Quality.........   280
    Prepared statement...........................................   282
Responses to additional questions from:
    Senator Boxer................................................   288
    Senator Inhofe...............................................   291
Maravell, Nick, Maryland Crop, Livestock and Vegetable Farmer....   299
    Prepared statement...........................................   301
Hawkins, George S., General Manager, District Of Columbia Water 
  And Sewer Authority............................................   307
    Prepared statement...........................................   310
Budell, Richard J., Director, Office of Agricultural Water 
  Policy, Florida Department of Agriculture and Consumer Services   317
    Prepared statement...........................................   320
Responses to additional questions from:
    Senator Boxer................................................   325
    Senator Cardin...............................................   326
    Senator Inhofe...............................................   327

                          ADDITIONAL MATERIAL

Letters:
    United States Environmental Protection Agency................   335
    Congress of the United States................................   338
    Mosaic.......................................................   341
    Several undersigned organizations to Administrator Lisa 
      Jackson....................................................   345
    NEIWPCC......................................................   349
    ALFA Farmers.................................................   352
    Bluegreen Alliance...........................................   354
Review of the Limno Tech Report, Comparison of Load Estimates for 
  Cultivated Cropland in the Chesapeake Bay Watershed............   355
The Florida Today Editorial......................................   389
Letters:
    State of Alabama Department of Agriculture and Industries....   396
    The Fertilizer Institute.....................................   398


    NUTRIENT POLLUTION: AN OVERVIEW OF NUTRIENT REDUCTION APPROACHES

                              ----------                              


                        TUESDAY, OCTOBER 4, 2011

                                U.S. SENATE
         Committee on Environment and Public Works,
    Subcommittee on Water and Wildlife
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Office Building, Hon. L. Benjamin 
Cardin (chairman of the subcommittee) presiding.
    Present: Senators Cardin, Sessions, Whitehouse, Inhofe, 
Boozman.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Good afternoon, everyone. The Subcommittee 
on Water and Wildlife will come to order.
    Our hearing today deals with Nutrient Pollution, an 
Overview of Nutrient Reduction Approaches. I want to thank all 
of our witnesses that are here. Nutrient pollution from 
nitrogen and phosphorus has consistently ranked as one of the 
top causes of degradation of some of U.S. waters for more than 
a decade. It results in significant water quality problems, 
including harmful algae blooms and declines in wildlife and 
wildlife habitat. These in turn harm the fishing, recreation 
and service industries that are dependent on the health of 
those waterways.
    The goal of today's hearing is to document how nutrient 
pollution is a national problem. We will hear about its causes 
and impacts. We will also hear about effective approaches to 
reduce and control nutrient pollution.
    We invited two panels of witnesses to today's hearing. They 
will report on how the Federal, State and local representatives 
have developed a variety of solutions tailored to meet the 
needs of individual bodies of water. They will also relate how 
the low oxygen levels in our Nation's water persist despite 
local efforts.
    On our first panel, representatives of the Environmental 
Protection Agency, the Department of Agriculture and U.S. 
Geological Survey will present scientific data on the impacts 
of nutrient pollution. They will speak to ongoing collaborative 
efforts between the agencies and local governments to stem the 
tide of pollutants.
    On the second panel we will hear from stakeholders about 
the first-hand impacts of nutrient pollution on such disparate 
activities as farming and outdoor recreation. We will also hear 
about innovative technologies and practices that are succeeding 
in reducing nutrient pollution in cost-effective ways.
    Nutrient pollution is bad for our Nation's coastal waters 
and lakes. Excesses of nitrogen and phosphorus cause the 
concentration of dissolved oxygen in water to decrease to a 
level that can no longer support living aquatic organisms, 
creating vast dead zones in our Nation's water. In the northern 
Gulf of Mexico this year, dead zones were in excess of 6,500 
square miles, larger than the size of New Jersey. In the 
Chesapeake Bay this year, dead zones covered over one-third of 
the Bay. And waters outside the dead zone are threatened as 
well.
    A recent study found that in total, over 80 percent of the 
Chesapeake and its tributaries are either low oxygen or no 
oxygen as a result of nutrient pollution. Without sufficient 
oxygen levels, plants and marine life suffocate, leaving far 
fewer fish and shellfish for our Nation's commercial and 
recreational fishermen. Deoxynized water also feeds algae 
blooms, making water unsuitable for both industry and 
recreation, including public health risks with the quality of 
our drinking water.
    This problem is not new. Forty years ago, we were warned 
that submerged grasses in the Bay were dying because of excess 
nitrogen and pollution. The grass beds provide shelter to 
oysters and waterfowl. Today, due to a combination of factors, 
including nutrient pollution, the Bay's native oyster 
population is small fraction of what it once was.
    As a result, the oyster harvest value has declined 88 
percent in the past three decades. Further, in the past two 
decades, the number of working oystermen in the Bay has 
decreased 92 percent. Oystering once supported over 6,000 
Maryland families. Today, only 500 oystermen remain. This is 
just one example of not only the environmental but also the 
economic devastation that nutrient pollution can cause.
    The Clean Water Act has helped tremendously with addressing 
pollution discharges from point sources, such as factories. 
However, by every scientific measure, the ecological health of 
the Chesapeake Bay is still poor. Its persistent ill health 
stems from the continued flow of pollutants including nutrients 
from non-point sources.
    I want to repeat what I said before. Despite the protection 
of the Clean Water Act, one-third of the Chesapeake Bay was 
unable to support aquatic life this year. The Bay and its 
tributaries have been harmed by too much runoff from farmlands, 
too much urban and suburban development, and too many 
impervious surfaces.
    Unfortunately, the Bay is not unique in suffering this 
harm. Water bodies across the Country are dealing with similar 
threats from nutrient runoff. In today's hearing, we will be 
examining the best methods for addressing this pervasive 
problem.
    The Water and Wildlife Subcommittee has a responsibility to 
ensure that the Nation's water quality laws are actually 
working and producing results. This is an ongoing debate about 
the appropriateness of the Federal role in nutrient reduction. 
Some argue that policing this runoff is an issue best left to 
the States. Well, in Maryland the State has spent $100 million 
a year over the past decade on nutrient reduction and improving 
the Bay. In spite of the State's concentrated effort, the 
health of the Bay is still diminished.
    The key to the Bay's restoration lies in recognizing that 
it is merely the most obvious part of a much larger watershed. 
The Chesapeake Bay's watershed encompasses six States and the 
District of Columbia. Maryland's efforts alone cannot block 
runoff that originates across its borders. We must address the 
pollution in the Chesapeake Bay by dealing with all the 
pollution in the entire watershed. This is a watershed-wide 
problem and the only real remedies lie in the watershed-wide 
solutions. A coordinated effort is necessary to restore our 
Nation's treasure.
    The same is true with other water bodies across the 
Country, ranging from the Great Lakes to the Gulf of Mexico, 
from the Long Island Sound to the San Francisco Bay. Today's 
hearing will demonstrate that nutrient pollution can be 
mitigated with collaborative efforts and a coordinated role for 
Federal agencies.
    I want to again thank the witnesses who are joining us 
today in our effort to understand and reduce the damaging 
effects of dead zones on our Nation's water.
    We will now to turn to the Ranking Republican Member of the 
Subcommittee, Senator Sessions.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Nutrient pollution from nitrogen and phosphorus has 
consistently ranked as one of the top causes of degradation in 
some U.S. waters for more than a decade. It results in 
significant water quality problems including harmful algal 
blooms, hypoxia (low oxygen levels), and declines in wildlife 
and wildlife habitat. These, in turn, harm the fishing, 
recreation, and service industries that are dependent on the 
health of those waterways.
    The goal of today's hearing is to demonstrate that nutrient 
pollution is a national problem. We will hear about its causes 
and impacts. We will also hear about effective approaches to 
reduce and control nutrient pollution.
    We have invited two panels of witnesses to today's hearing. 
They will report how Federal, state, and local representatives 
have developed a variety of solutions tailored to meet the 
needs of individual bodies of water. They will also relay how 
the low-oxygen levels in our nation's waters persist despite 
local efforts.
    On our first panel, representatives of the Environmental 
Protection Agency, the Department of Agriculture, and the U.S. 
Geological Survey will present scientific data on the impacts 
of nutrient pollution. They will speak to ongoing collaborative 
efforts between the agencies and local governments to stem the 
tide of pollutants.
    In the second panel, we will hear from stakeholders about 
the firsthand impacts of nutrient pollution on such disparate 
activities as farming and outdoor recreation. We will also hear 
about innovative technologies and practices that are succeeding 
in reducing nutrient pollution in cost-effective ways.
    Nutrient Pollution and Low Dissolved Oxygen:

    Nutrient pollution is bad for our nation's coastal waters 
and lakes. Excesses of nitrogen and phosphorus cause the 
concentration of dissolved oxygen in water to decrease to a 
level that can no longer support living aquatic organisms, 
creating vast ``dead zones'' in our nation's waters. In the 
northern Gulf of Mexico, this year's dead zone was 6,765 square 
miles, larger than the size of New Jersey. In the Chesapeake 
Bay, this year's dead zone covered over one third of the Bay. 
And waters outside of that dead zone are threatened as well.
    A recent study found that in total over 80 percent of the 
Chesapeake and its tributaries are either low-oxygen or no 
oxygen as a result of nutrient pollution.
    Without sufficient oxygen levels, plants and marine life 
suffocate, leaving far fewer fish and shellfish for our 
nation's commercial and recreational fishermen. De-oxygenated 
water also feeds vast and odorous algal blooms, making water 
unsuitable for both industry and recreation.
    This problem is not new, and its effects are not limited to 
wildlife.
    Forty years ago, we were warned that submerged grasses in 
the Bay were dying because of excess nutrients and pollution. 
The grass beds provided shelter to oysters and waterfowl. 
Today, due to a combination of factors including nutrient 
pollution, the Bay's native oyster population is a small 
fraction of what it once was. As a result, the oyster harvest 
value has declined 88 percent in the last three decades.
    Further, in the past two decades, the number of working 
oystermen on the bay has decreased 92 percent. Oystering once 
supported over 6,000 Maryland families. Today only 500 
oystermen remain. This is just one example of not only the 
environmental, but also the economic devastation that nutrient 
pollution can cause.
    The Clean Water Act has helped tremendously with addressing 
pollution discharges from point sources, such as factories. 
However, by every scientific measure, the ecological health of 
the Chesapeake is still poor. Its persistent ill health stems 
from the continued flow of pollutants, including nutrients, 
from non-point sources.
    I want to repeat what I said before: Despite the 
protections of the Clean Water Act, one third of the Chesapeake 
was unable to support aquatic life this year.
    The Bay and its tributaries have been harmed from too much 
runoff from farm lands, too much urban and suburban 
development, and too many impervious surfaces. Unfortunately, 
the Bay is not unique in suffering this harm. Water bodies 
across the country are dealing with similar threats from 
nutrient runoff. In today's hearing, we will be examining the 
best methods for addressing this pervasive problem.
    Making Sure Our Laws Work:

    The Water and Wildlife Subcommittee has a duty to ensure 
that the nation's water quality laws are actually working and 
producing results. There is an ongoing debate about the 
appropriateness of the Federal role in nutrient reduction. Some 
argue that policing this runoff is an issue best left up to the 
states. Well, in Maryland, the State has spent $100 million 
dollars a year over the past decade on nutrient reduction and 
improving the Bay. In spite of the state's concentrated 
efforts, the health of the Bay is still diminished.
    The key to the Bay's restoration lies in recognizing that 
it is merely the most obvious part of a much larger watershed. 
The Chesapeake Bay's watershed encompasses six states and the 
District of Columbia. Maryland's efforts alone cannot block 
runoff that originates across its borders. We must address the 
pollution in the Chesapeake by dealing with all the pollution 
in the entire watershed. This is a watershed-wide problem and 
the only real remedy lies in watershed-wide solutions. A 
coordinated effort is necessary to restore this national 
treasure.
    The same is true of other water bodies across the country, 
ranging from the Great Lakes to the Gulf of Mexico, and from 
Long Island Sound to San Francisco Bay.
    Today's hearing will demonstrate that nutrient pollution 
can be mitigated with collaborative efforts and a coordinating 
role for Federal agencies. I want to thank our witnesses for 
joining us today to assist in our efforts to understand and 
reduce the damaging effects of dead zones in our nation's 
waters.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Chairman Cardin. You have the 
great historic Chesapeake Bay, and we have the historic Mobile 
Bay. I have been involved over the years with those who have 
committed great effort and leadership to improving the quality 
of Mobile Bay.
    And I have concluded that nutrient and sediment runoff is 
probably the greatest threat to our bays. We have a number of 
chemical companies and industrial plants up and down the river. 
But over the years, those have been improved dramatically, very 
little runoff in terms of chemical pollution into our waters.
    But sediment, nutrients from fertilizers and all do present 
problems. There is no doubt about it. And it is a good thing 
for us to talk about. Nutrient pollution, as you noted, 
contributes to dead zones in the Gulf of Mexico, which is 
around 3,000 to 9,000 square miles, which is a large area. It 
represents, however, I would note, about 1 percent of the Gulf 
of Mexico, but it is a dead zone that I think can be traced to 
nutrient runoff.
    In Mobile Bay, over the centuries, we have had jubilees, 
when crab, shrimp, fish come up on the shore. They have done 
this since the founding of the area 300 years ago. They have 
been documented. So some of this is natural, where the oxygen 
level is reduced and the fish have to move away from it. But we 
know that many things that happen today are exacerbating that.
    So the question, I do think, this afternoon is what should 
the Federal Government do and what role should they play in 
this problem. The House Subcommittee on Water Resources held a 
hearing in June. Testimony at that hearing showed that nutrient 
pollution cannot be remedied through a national numeric water 
quality standard, a uniform national standard would not be 
effective. Whether nutrient levels are helpful or harmful to 
water quality, in some cases, they could be helpful, water 
depth, flow rates, temperatures, sunlight and other site-
specific factors determine what are the danger areas. The 
sources of nutrient pollution also differ from region to 
region.
    So I do think it is fair to say a one size fits all, a 
national regulation of uniform approach is not the right way to 
go forward. I do believe we should rely primarily on States to 
develop water quality standards for nutrients in a manner that 
they believe effective. Multiple States can work together 
collaboratively. Voluntary efforts by the agricultural 
community and landowners and industries can also be helpful, 
and indeed, are being helpful. I know in Mobile, they have 
drawn up an entire map of the Bay and where the runoffs are 
occurring and progress has been made over the years toward 
reducing that.
    But I am concerned, the approach EPA is currently taking in 
places like Florida, instead of the cooperative federalism, EPA 
does seem to be utilizing coercive federalism. So I believe 
that is an unhealthy trend. I question whether EPA has the 
resources to develop standards nationwide, national standards. 
And I would like to offer for the record at this time written 
comments submitted by stakeholders in my State, from the 
Alabama Department of Environmental Management who works on 
this, the Alabama Department of Agriculture, John McMillan, 
Commissioner, and the Farmers Federation of Alabama, ALFA, and 
their remarks.
    Senator Cardin. Without objection, all those statements 
will be included in the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    
    Senator Sessions. Director LeFleur, of the Alabama 
Department of Environmental Management, explains that ``Many 
States, including Alabama, are advocating an approach that 
would set numeric criteria for nitrogen or phosphorus for water 
bodies using the best available science but would allow 
determination of use impairment to be made on the basis of 
impacts on the aquatic communities.' Jerry Newby at ALFA 
explains that farmers are increasingly implementing 
``production practices that allow them to be better 
environmental stewards.'
    So Mr. Chairman, I would ask that the record be left open 
for 2 weeks to allow members to submit additional material, if 
that is appropriate.
    Senator Cardin. Without objection, the record of the 
Committee will be held open for 2 weeks.
    Senator Sessions. Thank you, Mr. Chairman.
    I believe this will be a healthy hearing, and will deal 
with the tension of a desire to utilize local people who have 
been working on these estuaries and bays and the Gulf for 
years, maybe decades, and how they can appropriately work with 
the national Environmental Protection Agency to improve water 
quality.
    Senator Cardin. I thank Senator Sessions for your comments.
    I now turn to the Ranking Republican Member of the full 
Committee, Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman, for calling the 
hearing today. I appreciate the Committee's broad approach to 
the extremely complex and difficult topic of nutrient 
pollution.
    I also want to thank this Committee for its leadership on a 
number of important issues like hydraulic fracturing. I want to 
single you out, Mr. Chairman, for your very kind words you had 
for our Oklahoma witnesses and your recognition as to how 
serious this subject is.
    I am eager to hear from Ms. Shellie Chard-McClary, who is 
from Oklahoma, sitting in the third row back there with a smile 
on her face. That won't last long.
    [Laughter.]
    Senator Inhofe. Yes, it will. She is a delightful person. 
She is with our Oklahoma Department of Environmental Quality. 
She is Division Director of the Water Quality Division.
    Then we also have from the States' perspective Richard 
Budell, who is the Director of the Office of Agricultural Water 
Policy for Florida. It is very important for us to hear the 
States' perspective. Because there is a propensity in 
Washington that all answers and al problems are resolved here. 
And we know better than that.
    Nutrients are different from other water pollutants, 
because they are not intrinsically toxic. They occur naturally 
and their presence is essential to healthy water bodies. 
However, when conditions such as sunlight, temperature, water 
flow and background water chemistry are right, they can be 
problematic. I know that we went through this experience in 
Oklahoma last June. A lot of people are not aware, probably 
some in this room are not aware of the fact that Oklahoma has 
the largest, the most miles of freshwater shoreline of any of 
the 50 States. And we spend a lot of time on that.
    Senator Sessions. That can't be.
    Senator Inhofe. That is true, yes, it is. You are all 
saltwater down there.
    Senator Sessions. A lot of it.
    Senator Inhofe. But anyway, last June, this is an 
experience that you guys may not know about, I was down there 
at our place at Grand Lake, it is a huge lake. One my little 
granddaughters was down there, and it was Monday and I was 
going to have to catch a plane and come to Washington. And 
where I was swimming, I said, come on in, Molly, come on in. 
No, I don't want to, Papa. No, come on in. And finally she 
said, what is that green stuff down there? It looked like 
little amoebas floating around down in the water. I said, it is 
fine, there is no problem.
    I got to Washington that night, I thought I was going to 
die for two nights. Because I got the blue green algae. I 
always thought people were faking it, but it is for real.
    So that is the type of thing we are talking about now, and 
it is serious. In fact, people felt so sorry for the pain I was 
going through I even got a get well card from the Sierra Club.
    [Laughter.]
    Senator Inhofe. Because of all the factors that contribute 
to nutrient pollution, the levels may be impairing one body of 
water and may be healthy for another. And this is exactly what 
happened in my State of Oklahoma in four different lakes.
    So I recently released a report exposing the high cost of 
the EPA's water regulations and the impacts on State and local 
government. The Clouded Waters report explores some of the 
major regional initiatives to control nutrient pollution in the 
Chesapeake Bay and Florida. These strict regulatory approaches 
are costly and have questionable environmental gains attached 
to them. I hope we can learn from these expensive, heavy-handed 
approaches and find ways to support States in developing 
scientifically sound management approaches to dealing with 
nutrient reductions that don't force an unfair choice between a 
healthy economy and a healthy ecosystem.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    I'd like to thank Chairman Udall for holding this hearing. 
I know the issue of uranium mill tailings remediation is of 
special concern to him and before that, to his father, 
Congressman Mo Udall, with whom I had the pleasure of serving 
in the House. I understand and share his concerns since we have 
one such site in Gore, Oklahoma. The Sequoyah Fuels Corporation 
operated as a uranium processing facility until 1992. In 2002, 
the Nuclear Regulatory Commission reclassified its wastes, 
bringing it under the authority of the Uranium Mill Tailings 
Radiation Control Act, authored by Congressman Udall.
    The operations at many of these uranium mines and mills 
spanned decades and the associated remediation must also. This 
is a source of great frustration to many people impacted by 
these sites. I look forward to learning about the progress 
these agencies are making to clean up the Federal Government's 
uranium mining and processing legacy from the cold war.
    In preparing for today's hearing, I am struck by the 
contrast between the levels of public health protection in the 
early decades of uranium mining with the requirements placed on 
modern day operations. NRC and EPA regulation of these 
facilities appears fairly comprehensive from groundwater 
protection requirements for In Situ Leach (ISL) mining to 
storage and disposal of tailings from conventional mines. For 
example, tailings can only be stored in specially constructed, 
``zero-discharge'' facilities, with multiple liners and leak 
detection systems. Mill operators must also provide financial 
surety adequate to completely decommission the mill and reclaim 
the site. It is my hope that this thorough regulation of modern 
uranium mining reflects the lessons of our past, but does not 
inhibit the successful development of such facilities.
    Our nation's economy depends on plentiful supplies of 
clean, affordable energy. Nuclear energy makes a crucial 
contribution to our energy supply, providing nearly 20 percent 
of our electricity--clean electricity that doesn't emit air 
pollutants. I hope to see this clean energy source grow in the 
near future. As our demand for uranium increases, it makes 
sense to me that we should harness domestic resources of 
uranium to a practical extent. This not only enhances our 
energy security, but also creates jobs: up to 300 jobs at each 
conventional mine and another 300 jobs at uranium processing 
mills.
    We can't lose our focus on important efforts to clean up 
past activities, but we can't allow that legacy to obscure our 
development of clean energy. Modern uranium mining is vastly 
different from the government's unfettered activities in the 
1950's. It is safer, cleaner, and supports the increased use of 
nuclear energy to meet our energy security needs. We need to 
maintain a balance between adequate protection of public health 
and safety, and the timely licensing of new uranium production 
facilities while we continue solving the uranium legacy left 
over from the cold war.

    Senator Cardin. Thank you, Senator Inhofe. You should 
listen to your granddaughter.
    Senator Inhofe. Yes, I know it. I do from now on.
    Senator Cardin. Senator Whitehouse?

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Cardin. Thank you 
for hosting this hearing. And I want to thank the Ranking 
Member as well. This is a very important issue.
    I would like to ask unanimous consent to add into the 
record of these proceedings an article entitled Dead Zones are 
Killing Ocean Ecosystems, by Jessica Wurtzbacher, who is an 
adjunct professor of biology at Roger Williams University in 
Rhode Island and lives in Jamestown. She reports that the 
number of dead zones around the world in the past 60 years has 
gone up nearly 10 times, from about 42 to over 400. And while 
the Baltic Sea is probably the biggest one, as has been 
mentioned already, the Gulf of Mexico is the biggest in the 
Continental United States. The Chesapeake Bay has very, very 
significant dead zones, occupying about 40 percent of the Bay 
in the summer.
    And we in Rhode Island, in the Greenwich Bay area off of 
Narragansett Bay, saw a very significant fish kill a few years 
ago from a dead zone that erupted as warm waters and nutrients, 
contributed to an algae bloom that killed off the fish. But 
even if it is not killing off the fish, in a State like Rhode 
Island, where we are so proud of our coasts and where people 
come from all around the world to experience Rhode Island in 
the summer, a day at the beach with a red tide is not the kind 
of day that people are going to go home and say, that is a 
great place to go. It really has an economic effect, as well as 
the biological effects.
    So I appreciate very much that you have held the hearing, 
and again, if I could have unanimous consent.
    Senator Cardin. Without objection, the entire article will 
be made part of our record.
    [The referenced information was not submitted at time of 
print.]
    Senator Whitehouse. I appreciate it.
    Senator Cardin. Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman. I appreciate you 
and the Ranking Member allowing me to sit in on the 
Subcommittee. In the interest of time, I will submit something 
to the record.
    Senator Cardin. Thank you. Without objection, your 
statement will be made part of the record.
    Now let me just introduce briefly our first panel of 
witnesses. First we have Bill Werkheiser. He is the Associate 
Director for Water for the U.S. Geological Survey. Mr. 
Werkheiser is responsible for USGS water related research and 
activities needed to understand our Nation's water Resources.
    We have Nancy Stoner, who presently serves as the Acting 
Assistant Administrator for Water at the U.S. Environmental 
Protection Agency. Previously, Ms. Stoner served as the Deputy 
Assistant Administrator for Water at EPA.
    Then we have Dave White. Mr. White was named Chief of the 
Natural Resources Conservation Service for the USDA in 2009. He 
provides overall leadership for activities of the Natural 
Resources Conservation Service to help people conserve, 
maintain and improve our natural resources and environment.
    We will start with Mr. Werkheiser.

  STATEMENT OF WILLIAM H. WERKHEISER, ASSOCIATE DIRECTOR FOR 
                 WATER, U.S. GEOLOGICAL SURVEY

    Mr. Werkheiser. Chairman Cardin, and members of the 
Subcommittee, thank you for the opportunity to appear before 
the Subcommittee with my colleagues from EPA and NRCS to 
testify on our research findings related to nutrients in the 
Nation's streams and aquifers.
    Last year, USGS released the results of a comprehensive 
national assessment of nutrients in streams and groundwater 
that describe current nutrient conditions, how these conditions 
have changed over time, potential effects on humans and aquatic 
life, and important natural and human factors affecting 
nutrient concentrations. Our findings show that concentrations 
of nitrogen and phosphorus were 2 to 10 times greater than 
levels recommended to protect aquatic organisms in most 
agricultural and urban streams across the Nation.
    Despite major Federal, State and local efforts to control 
point and non-point sources of nutrients, concentrations of 
nutrients have remained the same or increased in many streams 
and aquifers across the Nation since the early 1990's. There 
are some exceptions to these findings, but in general, these 
findings are consistent with relatively stable sources of 
nutrients from chemical fertilizer, manure and atmospheric 
deposition since the 1980's.
    One of the most important hydrologic factors associated 
with high nitrogen concentration in streams is the presence or 
absence of subsurface tile drains. Tile drains are used in clay 
soils to prevent rapid dewatering of the root zone, which is 
necessary for healthy crops. Tile drains increase nutrient 
concentrations in streams by moving rainwater and nutrients 
from the soil rapidly to the streams. We found that areas with 
tile drains export about three times more nitrogen than other 
agricultural watersheds.
    One of the most important findings in the assessment is 
that groundwater contributions of nitrogen to streams can be 
quite significant. For many of the streams we assessed, at 
least one-third of the total annual load of nitrate was 
contributed by groundwater flow into streams. This means that 
significant errors may be introduced into the nutrient load 
allocation process if nitrogen concentrations from groundwaters 
are not taken into account.
    This also means that it is important to consider the 
relative importance of groundwater contributions before 
deciding which conservation practices are most appropriate. For 
example, conservation practices designed to reduce runoff to 
streams may have only a limited effect on nutrient loads in 
streams where groundwater contributions of nutrients are 
substantial.
    Nitrate is a continuing human health concern in drinking 
water, particularly in shallow private wells and agricultural 
areas. Concentrations exceeded the current drinking water 
standard of 10 milligrams per liter in 7 percent of more than 
2,000 private wells sampled by USGS. The quality and safety of 
water from private wells, which provide drinking water to about 
15 percent of the U.S. population, are not regulated by the 
Safe Drinking Water Act. Rather, they are the responsibility of 
the individual homeowner.
    Our findings show that the percentage of all sampled wells 
with nitrate concentrations greater than the drinking water 
standard increased from 16 percent to 21 percent since the 
early 1990's. In fact, we expect that nitrate concentrations 
are likely to increase in many private and public supply wells 
during the next decade as shallow groundwater with high nitrate 
concentrations move downward to the deeper parts of the aquifer 
used by many public water utilities.
    There are two reasons for this. First, nitrate can persist 
in groundwater for years or even decades and may continue to be 
present at high concentrations because of past land management 
practices. Second, because of the slow movement of groundwater, 
there is a lag time between what happens on the land surface 
and chemical changes in water that reaches a deep well. What 
this mean is that water quality will likely get worse in many 
places before it gets better, regardless of what we do now. In 
fact, improvements in water quality that might resolve from 
reducing nutrient sources on the surface may not be apparent in 
some watersheds for years or even decades.
    Thank you, Mr. Chairman, for the opportunity to share USGS 
research findings on this very important topic. I will be happy 
to answer any questions you or the other members may have.
    [The prepared statement of Mr. Werkheiser follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Senator Cardin. Thank you very much for your testimony.
    Ms. Stoner.

 STATEMENT OF NANCY STONER, ACTING ASSISTANT ADMINISTRATOR FOR 
          WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Stoner. Good afternoon, Chairman Cardin, Ranking Member 
Sessions and members of the Committee and Subcommittee.
    I am Nancy Stoner, Acting Assistant Administrator for Water 
at USEPA. I am pleased to be here this afternoon alongside 
Chief White of NRCS and Associate Director Werkheiser of USGS 
to discuss the agency's efforts to protect public health and 
the environment in the context of nutrient pollution, one of 
the Nation's most pervasive water quality problems.
    Nutrient pollution has become one of the most widespread, 
costly and serious water pollution challenges being faced by 
communities across the Country. Nutrients such as nitrogen and 
phosphorus pollute the waterways in which our families fish and 
swim, contaminate our drinking water supplies and cause illness 
and choke the economic health of businesses across the Nation 
that rely on clean and safe water.
    Abundant sources of clean and safe water are vital for 
healthy communities, ecosystems and businesses in America. 
Clean water is not simply a resource and asset to be passed 
along to our children. It is an essential part of everyday 
life. Clean water is an essential component of public health, 
our drinking water supplies and the welfare of our families and 
communities, whether in large cities, small towns or rural 
America.
    The economic health and growth of businesses large and 
small, and the jobs they create, rely upon a high quality and 
reliable source of clean water. The range of businesses that 
depend on our water resources include tourism, farming, 
fishing, beverage production, manufacturing, transportation and 
energy generation, just to mention a few.
    Nutrient pollution contributes to significant impacts to 
our Nation's economy and the health of our communities. Let me 
provide a few examples. In Oregon, the State's health authority 
reports that 18 lakes and reservoirs were affected by harmful 
algal blooms caused by high nutrient levels, leading to nine 
closures in 2011. Additional closures remain in effect today.
    The Kansas Department of Health and the Environment has 
issued public health advisories for four lakes, warning 
residents that the water is unsafe for human or animal 
consumption and contact due to harmful algal blooms. Eight 
additional Kansas lakes have public health warnings that advise 
no contact with the water.
    Algal bloom toxins have been found in the Kansas River, a 
major drinking water source for nearly 60,000 residents in 
eastern Kansas. In Oklahoma, blue green algal blooms that 
started to develop before the Fourth of July continue to affect 
seven lakes in the State and beaches at four lakes remain 
closed.
    In Ohio, Grand Lake St. Mary's has received national 
attention for massive algal blooms that have led to the deaths 
of fish, birds, dogs and illnesses in at least seven people. 
These algal blooms and toxins have resulted in economic losses 
due to beach closures and lower tourism revenue, and have 
threatened drinking water supplies and public health.
    In addition to the toxins associated with algal blooms, 
nutrient pollution itself can also pose a risk to the water we 
drink. High levels of nitrate in drinking water have been 
linked to serious illness in infants and other human health 
effects. Reported drinking water violations for nitrates have 
doubled nationwide in the last decade and some public water 
systems have had to install costly treatment systems to reduce 
nitrate levels.
    Recognizing the need for a more coordinated effort to 
reduce nutrient pollution, the EPA has renewed its commitment 
to work with other Federal agencies, States and other 
stakeholders to achieve progress. EPA believes that States are 
best suited to take the lead in addressing nutrient pollution, 
and we work closely with our State and local partners to ad 
their efforts.
    In March, I sent a memorandum to our regional offices, 
making it clear that reducing nitrogen and phosphorus pollution 
is best addressed by States relying on a range of regulatory 
and non-regulatory tools, including proven conservation 
practices. We also appreciate the significant leadership 
demonstrated by USDA and USGS on this important issue.
    The EPA works closely with USDA, USGS and States to monitor 
the extent and impact of nutrient pollution and implement 
nutrient reduction projects on the ground. In addition, to 
complement the efforts of USDA and other partners, we are 
focusing on broader efforts to use funding under Section 319 of 
the Clean Water Act for watershed planning and stakeholder 
involvement.
    Working closely with USDA, we are engaging creatively in 
work with communities to achieve improvements in water quality. 
We are also partnering with USDA, the Department of Interior, 
and Chesapeake Bay States to implement the landmark Chesapeake 
Bay total maximum daily load, which is a pollution diet for 
nutrients in the Bay.
    In conclusion, Mr. Chairman, the threat posed by nutrients 
in our Nation's waters is one of the most serious water 
pollution problems faced by our communities nationwide. We at 
the EPA are committed to working with States, other Federal 
agencies, farmers, business, communities and other stakeholders 
to identify ways to tackle the nutrient pollution problem in a 
way that protects our Nation's waters, sustains our economy and 
safeguards the health and well-being of all Americans who 
depend upon clean and safe water. We look forward to working 
with the Subcommittee as these efforts proceed.
    Thank you for the opportunity to testify before you today. 
I look forward to answering any questions you may have.
    [The prepared statement of Ms. Stoner follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Cardin. Thank you very much for your testimony.
    Mr. White.

STATEMENT OF DAVE WHITE, CHIEF, NATURAL RESOURCES CONSERVATION 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. White. Greetings. It is a great honor to be here, and I 
thank you all very much for having me.
    My colleagues have given an overview of the issue and the 
science. I would like you to think of the United States, 
picture the map, just the coterminous United States, the lower 
48. Seventy percent of that land is owned by private 
individuals. And we believe, or I believe, that you can do 
anything you want with the Federal land, State land, county 
land, city land, the health of our environment, the fate of our 
environment rests in the hands of our private landowners, the 
men and women who own and operate that land.
    And that's who NRCS primarily works with. We have a lot of 
programs, you guys are very gracious in the funding that you 
have provided through the Farm Bill. And I will visit with you 
some on how we are implementing those.
    But just this last Fiscal Year we concluded last Friday, we 
were able, if you look at our five biggest cost share programs, 
to enter into 55,000 contracts with farmers and ranchers across 
this Country, many of them focused exclusively on water 
quality. At the same time, we had 26,000 unfunded applications. 
So we have like a 50 percent backlog.+
    So if anyone ever questions the desire, the commitment of 
our farmers and ranchers to do what is right for the 
environment, to care about wildlife and the air and the water 
we drink, just let them talk to me. Because I feel their 
commitment is especially strong.
    I will visit with you a little bit about the Conservation 
Effects and Assessment Project. I was loaned to Senator Lugar 
in the 2002 Farm Bill. There is a little provision in there 
that said, USDA, we want you to look at all these conservation 
practices you guys are putting on, and you tell us, are they 
working, are they not working. If they are not working, tell us 
what we ought to be doing.
    So this CEAP project began in 2003. We are looking at 12 
watershed basins, we will do one national report. Two of them 
are released, two are in the process, there are eight in the 
queue line. We are looking, we are finding out some results 
right now. One is, conservation works. If it was not for the 
conservation that was already applied on our land, depending on 
whether it is nitrogen, phosphorus, sediment, the problem would 
be somewhere, 30, 40, 50, 60 percent worse than it is now. So I 
am asking you to consider that the glass is half full.
    The second thing we have learned is that there is more to 
be done. This mirrors what my colleagues are saying. Subsurface 
nitrogen has been identified as the biggest problem in three of 
the reports that we are ready with. In Ohio and Tennessee, it 
looks like phosphorus might be the one. That one is still under 
peer review. But without question, subsurface nitrogen and the 
nutrients are the big issues.
    Three, we know that systems works better. Bill talked about 
that in his testimony, about how you have to match the practice 
to the landscape. And if you don't, you can actually exacerbate 
a problem if you don't really think through and put the right 
mix of practices there.
    And the fourth thing we have learned is that targeting or 
focusing a resource really works. If we pick the right acre and 
treat a high impact acre, we can have 20 times the impact of 
treating a lower priority acre.
    So that is great. The CEAP is wonderful, it has given us a 
lot of information. We are using it to inform our programs. But 
it is just a model. It is not a person, it is not a farmer, it 
is not going to design a system or anything like that.
    So let me visit with you a little bit about how we are 
using it. We are targeting our Resources to identify specific 
problems. Senator Sessions, we are looking at the Mississippi 
River, the 13 States, to try to do something about hypoxia in 
the Gulf of Mexico. We have 43 sub-watersheds that I didn't 
identify. We are talking about national and local. These were 
identified by local people, where nutrient loadings are the 
biggest issue. They use the sparrow model and EPA data to 
identify them. We have spent $95 million over the last 2 years 
on nutrient management, trying to help that.
    Senator Cardin, you know about the Chesapeake Bay and the 
amount of funding. I believe that you and some of your former 
colleagues were responsible for a little provision in the 2008 
Farm Bill called the Chesapeake Bay Watershed Initiative. We 
are trying to faithfully do that. We put $126 million extra in 
there in the last 2 years, and it is highly focused, highly 
targeted to helping the Bay.
    We are trying to leverage our funds. We took $20 million 
this year and entered into agreements with State agencies and 
private entities to expand our technical assistance.
    I just brought this book, just as an illustration. This is 
one engineering plan for one confined animal feeding operation 
in Montana. This is the amount of technical work that has to go 
into it. If you want to look at the design criteria for the 
side pressure walls, the drainage system, the gutter design, it 
is all here. Men and women are who have to do this thing, so we 
are trying to leverage our funds so we can expand those 
Resources.
    This year, in two of our programs, we have enrolled 25 
million acres. That is three times the size of Maryland.
    And just one more thing before I summarize, Ms. Stoner 
mentioned Grand Lakes St. Mary's in Ohio. We are not unaware of 
these issues. Since 2006, we have put $8 million into Grand 
Lake St. Mary's Ohio to try to deal with the nutrient issue. 
This year we also funded a conservation innovation grant that 
is going to be used in green energy. We are going to turn that 
manure into energy.
    In conclusion, I would say that we certainly believe that 
ag is a preferred land use across our landscape. This is the 
land where our food comes from, our fiber. It is so important 
for the future, not just for us, but for those little Americans 
who come after us. Thanks.
    [The prepared statement of Mr. White follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Cardin. Thank you for your testimony. I thank all 
three of you for your testimony.
    I think there is general consensus that the danger of 
excessive nutrients caused by pollution in our waters of 
America, creating dead zones and a risk to public health. It is 
interesting, we have an example that Senator Inhofe gave us, so 
we now have a specific example of the danger to our health. I 
think it points out the need for us to be more aggressive in 
this area.
    Mr. White, I appreciate your mentioning the Chesapeake Bay 
and the Farm Bill, the programs that were placed to deal with 
the nutrient pollutants coming from our farmers. It has been a 
very effective program, we thank you very much. We need more 
help, that is why last year I suggested a nutrient trading 
program, which we think also would help our farmers in giving 
them a financial reward to do better and help us attain the 
overall objectives that we think are achievable in reducing 
nutrients that flow into the Bay.
    I might also point out, I met with local officials today 
from Maryland, who pointed out to me that there really isn't 
much help out there to deal with storm runoff. We had suggested 
a special program within the Chesapeake Bay program last year 
to help us deal with storm runoff.
    Which really leads me, Ms. Stoner, to the first point, and 
that is, we do have direct ability to control the applications 
for direct point source pollution, dealing with nutrients. But 
non-point pollution, we do not. And the two large sources of 
nutrients going into our water supply come from farming 
activities that are not regulated, and from runoff, storm 
runoff, which is not regulated.
    That presents a real challenge as to how we can bring those 
sources of pollutants into an overall scheme without the direct 
ability to control their activities.
    Ms. Stoner. Yes, Senator. Your description is correct about 
the authorities that we have. Of course, we also do have 
municipal separate storm systems, which are stormwater sources, 
that are under the Clean Water Act permitting program.
    But we believe in using the full suite of tools that we 
have available to address nutrient pollution. Our approach, 
which I set forth in a memo last spring, is really to work with 
States on developing State-wide nutrient reduction strategies. 
Those strategies look at the loads of nutrients, what the 
sources are, and evaluate the full suite of tools that can be 
applied, whether it is grants, whether it is loans, whether it 
is technical assistance, whether it is regulatory tools, like a 
permitting program. Trading was mentioned, that is often a 
great tool. And other kinds of incentives that can be used.
    And using the full suite together, we think that we can do 
a lot better job in addressing nutrient pollution.
    Senator Cardin. Mr. White, do you have a view on the 
nutrient trading program as an effective tool?
    Mr. White. I know a lot of farmers and ranchers, Senators. 
I haven't met one yet that is bent on world domination. I think 
they just want to raise their families, pay their rent, see 
their kids off to school. And anything we can do in this what 
you are describing that would help them stay in business, put 
money in their pocket and improve the environment, I think we 
should support 100 percent.
    Senator Cardin. Thank you.
    Ms. Stoner, there has been at least a question raised by 
Senator Inhofe as the burden of numeric nutrient standards as 
compared to a narrative water quality standard. Could you just 
briefly comment on why EPA has used the numeric nutrient 
standards? And as I understand it, in Florida, I believe you 
offered to allow the locals tremendous input in developing what 
was right for Florida on the numeric standards. Could you just 
briefly describe that to us?
    Ms. Stoner. Yes, sir. Both USEPA and many States have 
indicated that they find numeric nutrient standards to be 
easier to implement. They set a particular target. It is like 
playing football and trying to figure out where the end zone 
is. You want to know where you are going. And they help set 
that standard, based on science, indicating what the water body 
needs in order to be healthy.
    So that helps in all kinds of ways, talking about loadings 
and targeting of resources, helps with all kinds of different 
approaches to address nutrient pollution. So we do find that 
those are helpful and those are encouraged in the memo that I 
referred to earlier. We are looking at how those can be used, 
often along with other approaches as well, and actually have a 
workshop with States, starting tomorrow, to discuss those 
approaches.
    It is not the only approach, but it is often a very 
effective one.
    Senator Cardin. Mr. Werkheiser, just briefly, is there a 
different approach needed to deal with the nutrient problems on 
groundwater as compared to the surface?
    Mr. Werkheiser. I think the best management practice that 
you would apply to the groundwater would be different than 
applied to surface water for a couple of reasons. One is just 
the length of time that the groundwater is in the system. And I 
think more importantly, we need realistic expectations, that 
this is a long-term issue. It is not something we are going to 
solve overnight, especially within the groundwater pollution. 
Those issues can last for decades.
    Senator Cardin. Senator Sessions.
    Senator Sessions. Thank you.
    Mr. White, one thing I became convinced with, as the Bay 
Watch advocates in Mobile Bay were engaged, and that is that 
discrete, special acreages or areas are often the biggest 
polluting sources, and that carefully targeted regulations can 
produce real benefit without over-regulating areas that may not 
be noticeable contributors. From my understanding of your 
initial remarks, do you believe that would be an effective way 
to maximize our ability to reduce runoff and nutrients in the 
water?
    Mr. White. No, sir. If I implied that, I apologize. What I 
meant is taking the voluntary incentive-based programs and 
through ranking criteria, through outreach, targeting the funds 
to the voluntary programs to those high areas. I am not a 
regulatory agency.
    Senator Sessions. But do you conclude, as I have observed, 
that in an area all around a water or estuary, that there are 
some specific areas that are far more problematic for the 
health of the water than others? And that a good regulation 
would target and focus on those that are most dangerous? Or you 
would just regulate everybody and make everybody in the whole 
region comply with your rule, regardless of the cost and 
benefit?
    Mr. White. I would again----
    Senator Sessions. You are not a regulatory----
    Mr. White. We do not have regulatory power, nor are we 
seeking any regulatory power.
    Senator Sessions. Maybe I should ask Ms. Stoner that. That 
would be fair enough.
    Mr. White. That would be good with me.
    [Laughter.]
    Senator Sessions. You have to see the farmers eyeball to 
eyeball more than she does, I guess.
    Mr. White. Every day.
    Senator Sessions. Ms. Stoner?
    Ms. Stoner. Yes. Certainly we believe in looking at where 
the loadings are coming from and focusing attention on the 
greatest loads. That is the way to achieve the most, we 
certainly agree with that point. As Senator Cardin noted in his 
first question to me, there are some regulations that apply to 
some types of entities and not to others.
    So there are not regulations that apply to everyone. We 
have to look at different tools for different sources, and we 
do the best we can in putting those together to achieve the 
goal.
    Senator Sessions. Is there a difference between nutrient 
pollution and silt runoff? Ms. Stoner, would you like to answer 
that?
    Ms. Stoner. I would, although I note that I am not a 
scientist. So my colleague at USGS may be able to do it in more 
detail.
    Silt often is a carrier of nutrient pollution.
    Senator Sessions. Is it defined in statute in any way 
differently?
    Ms. Stoner. The science really defines what nutrient 
pollution is, the nitrogen and phosphorus. And those compounds 
really come from the science. That is what we look to in terms 
of deciding what is too much. Because as I believe Senator 
Inhofe noted, having some nutrients in the waterway is normal. 
The question is, how much is too much, and that is what we look 
to the science to answer.
    Senator Sessions. Florida filed, in April, a petition with 
EPA asking it to abandon its takeover of Florida's nutrient 
pollution program. They have a program that they worked on. 
Florida asked EPA to respond within 30 days. Is it correct that 
you have not yet answered their petition?
    Ms. Stoner. We did sent them correspondence in response to 
their petition. We are continuing to work closely with the 
State of Florida on developing standards that would enable us 
to withdraw our standards. If Florida were able to promulgate 
final, approvable standards, we would then remove ours. And we 
would very much like to be in a position to do that.
    Senator Sessions. Well, on September 21st, 20 members of 
the Florida congressional delegation, including Senator Rubio, 
officially asked EPA to ``withdraw its decision to impose 
numeric nutrient criteria in Florida, and place Florida on a 
level playing field with other States.' The delegation also 
asked EPA to grant the April 22d petition.
    When do you anticipate giving Florida a yes or no to this?
    Ms. Stoner. We are on continued discussions with Florida.
    Senator Sessions. They have asked for an answer. Will you 
continue to press to take over the nutrient pollution program 
on numeric regulation, or will you work with Florida and allow 
them to continue the lead that they have had previously?
    Ms. Stoner. And we are working with Florida to continue to 
help them to develop standards.
    Senator Sessions. I think States and local communities do 
deserve respect. They know these waterways. And they have had 
some real great success in Tampa Bay and done some remarkably 
fine things. I think we will hear from them later.
    Ms. Stoner. We agree.
    Senator Sessions. My time is up. Thank you, Mr. Chairman.
    Senator Cardin. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Stoner, I have a very long question, but there is a 
question mark at the end. First of all, I am glad to have you 
before the Committee today. We have not had a chance to have a 
dialog about the direction the Office of Water has been taking.
    I have expressed my concern over a number of issues, which 
you are aware, including the impending stormwater rule and the 
draft jurisdictional guidance document.
    Of particular concern to me are the immense costs that are 
being passed to the States and local governments from these 
policies. Today I would like to focus on the idea of 
cooperative federalism versus coercive federalism.
    I am extremely concerned that EPA keeps saying that they 
want to support the States' solutions, and give the States 
flexibility. I have a quote from you that I agree with 
wholeheartedly, it says States need room to innovate and 
response to local water quality needs. So a one size fits all 
solution to nitrogen and phosphorus pollution is neither 
desirable nor necessary. I agree with that.
    In our next panel, we will hear from the Florida 
Agricultural Water Policy Director, Richard Budell. As well you 
know, EPA has taken over the process of setting numeric 
nutrient criteria for the State of Florida. This action has 
raised concern around the Country. To many States and 
stakeholders EPA appears to be in an aggressive pursuit of a 
number over and above the biological health of waters. Without 
the assurance of improved water quality, EPA is mandating that 
Florida municipal wastewater treatment facilities shoulder new 
compliance costs, estimated in the wide range, now, a range 
like this, there is something wrong, a wide range of $2.2 
million and $6.7 billion annually, and that Florida's 
agricultural community incur an estimated $19.9 million, that 
is the EPA's number, to $1.6 million, which is Florida's 
number. So obviously, there is something wrong with this 
picture.
    I would like to submit for the record several letters that 
have been written to the EPA, requesting that the EPA withdraw 
its rules, follow EPA's own nutrient framework and allow the 
State of Florida to take the lead in addressing the nutrient 
pollutants. So I would ask unanimous consent that be a part of 
the record.
    Senator Cardin. Without objection, those will be included.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    
    Senator Inhofe. EPA's response to these requests, Florida 
can have its State control back only if it does what EPA thinks 
is good enough or as this June 2011 response says, adopts 
protective criteria sufficient to address the concerns 
underlying our determination in rule. It is, you can do it, as 
long as you come to our same conclusions.
    In spite of the concerns raised with how EPA is trying to 
control nutrients in Florida, EPA is pushing other States to 
use the Florida model. Recently, EPA Region I rejected Maine's 
numeric nutrient criteria because they relied on a 
determination of whether a water body is biologically healthy 
using a weight of the evidence approach. This approach is 
recommended by EPA's science advisory board. Region I's 
response makes it clear that Maine's numeric criteria aren't 
good enough, and that they want them to adopt independently 
applicable limits, limits that apply regardless of the 
biological health of the water body, which is exactly what EPA 
has promulgated in Florida.
    EPA's own nutrient framework memo is inconsistent. While 
stating ``a one size fits all solution to nitrogen and 
phosphorus pollution is neither desirable nor necessary,' as I 
said before, it goes on to reinforce the inflexible position 
that States must adopt numeric nutrient criteria. I have a June 
23, 2011 letter from 50 group expressing their concern that 
this policy is inflexible, scientifically indefensible and 
actually slowing progress toward reducing impairments 
associated with excess nutrients. I would like to ask that they 
be as part of this record also.
    Senator Cardin. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Inhofe. So when EPA had the opportunity to follow 
through on its own stated desire to give States room to 
innovate and respond to local water quality needs, they have 
instead opted for their own answer to the problem. It is no 
wonder that States no longer feel the EPA is cooperating with 
them in trying to clean up waters, but instead is coercively 
pushing them to adopt a costly, heavy-handed EPA solution.
    So finally, Ms. Stoner, on August 17th of 2011, several of 
my colleagues and I sent you a letter voicing our concerns 
about the very wide and potentially expensive net that EPA cast 
in its advanced notice for proposed rulemaking for stormwater. 
Int hat letter, we asked 20 questions. There are several of 
these questions that were not answered, so my question to you 
would be, No. 1, when exactly are you planning to send your 
required report to Congress? And No. 2, will that report on the 
stormwater rule economic analysis contain jobs impact numbers?
    Ms. Stoner. Thank you, Senator.
    I would like to respond to a number of points that you 
made. First of all, in terms of State water quality standards, 
the way the Clean Water Act works is that States are the 
principal one to determine what the water quality standards 
are, based on the uses of the waters, to ensure that the waters 
are usable for fishing, swimming, drinking water, whatever it 
is that those are used for. That is a science-based decision.
    But then when the implementation of those standards occur, 
there is lots of flexibility in determining how to implement 
them so as to make sure that they are cost-effective.
    You asked about the costs.
    Senator Inhofe. And you are saying that then would be at 
the option of the States. I would hope that the next panel is 
in here and is listening, because I am going to ask them the 
same questions, similar questions in terms of how they are 
being treated in this respect.
    Ms. Stoner. You asked about the costs in Florida. And there 
are very widely differing estimates. EPA's estimates are based 
on assuming that the flexibility that exists in the Clean Water 
Act and the regulations will be employed in implementation of 
the water quality standards in Florida. And that is why our 
number is lower than numbers that others give, based on 
assuming that the flexibilities that are in the law will not be 
used.
    We have asked the National Academy of Sciences to take a 
look at that, to help us determine what the right costs are.
    You also asked about the standard for approval of those 
standards. So it is not based on EPA opinion, it is actually 
based on the Clean Water Act standards. And that is what 
Congress has given EPA a role in approving State water quality 
standards. And so that would be the test that we would use in 
determining whether or not Florida's standards can be approved.
    We do hope that they set standards that are approvable, and 
we are working very closely with them to share data, to share 
models, technical assistance, meeting with them on a regular 
basis to ensure that they submit standards that will be 
approvable. We hope that is the case.
    Senator Inhofe. Let me interrupt at this point, because we 
are way over my time. It is unfair to the rest of them. But the 
questions you said I asked I didn't ask. I asked the questions, 
when exactly are you planning to send the required report to 
Congress and will that report have the economic analysis 
containing jobs impact statements.
    So those are the two questions. You can answer them for the 
record if you would like.
    Ms. Stoner. Yes, sir. On the first question, we will be 
following the Clean Water Act, which requires the report to 
Congress under Section 402(p)(5) to be submitted before a 
decision is made to take further action under 402(p)(6). That 
is what the Clean Water Act requires, and we will be submitting 
that report before we go out with a proposal to propose any 
regulations under 402(p)(6) under the stormwater--I am sorry, 
was there another question?
    Senator Inhofe. No, that is all right, because I had 
suggested you answer those for the record, because we are using 
too much time here. So you have those questions, we would like 
those answers. Those two questions.
    Ms. Stoner. Thank you, Senator.
    Senator Cardin. Senator Whitehouse?
    Senator Whitehouse. Thank you, Chairman.
    Ms. Stoner, there is a technique, I would guess, or a 
series of techniques that are described as green 
infrastructure, although since it is water-based, maybe blue 
infrastructure would be a better term, that are designed to 
mimic natural processes of evaporation and filtration and have 
proven effective in reducing nutrient pollution. I am 
wondering, Senator Udall and I have introduced legislation 
called the Green Infrastructure for Clean Water Act of 2011, 
which would add green infrastructure as an option in the 
permitting process. I am wondering what you feel the 
authorities are that you have right now with respect to green 
infrastructure and whether you consider that to be a promising 
means of trying to protect our waterways from the nutrient 
pollution that we are seeing so often.
    Ms. Stoner. Yes, Senator.
    First of all, the green infrastructure usually is referring 
to the vegetation associated with it, although it doesn't 
always involve vegetation. But it is also called low impact 
development sometimes, and other types of names. And it is a 
very promising technique, not viewed only that way by EPA, but 
by State and local communities, by conservationists, by 
fishermen, by business leaders. It is actually booming across 
the Country, because people are very interested in it because 
of the multiple benefits that it provides. It helps revitalize 
cities, helps not only cleanup the waterways and restore water 
supplies, but also address urban heat island effect, air 
quality, all kinds of things.
    Senator Whitehouse. Can it result in cost savings compared 
to mechanical and chemical methods of treatment?
    Ms. Stoner. Often it can. It is not universal that it 
always does, but often it can, particularly when those benefits 
are considered. And it also helps drive investment in cleaned 
up waterways and neighborhoods that have implemented green 
infrastructure techniques, so it can bring in revenue as well. 
So it is very popular, we have lots of demands for assistance 
and help all across the United States and we can't meet them 
all. But we do have authority, which was your question, to work 
with communities now under existing, the State revolving funds, 
the 319 program and other funds that we have now. And we are 
doing the best we can to meet those requests for assistance.
    Senator Whitehouse. One other question. Rhode Island has 
done a very good job of addressing the point source for 
nutrient, the point sources for nutrient, that have 
contaminated Narragansett Bay and Mount Hope Bay for a long 
time. And there really isn't, I don't think, a whole lot left 
to be done from a point source perspective. We have huge CSO 
investment to be able to filter the water from storms that wash 
everything into combined sewer-storm systems. We have worked 
with some of the major polluters, the Bay Commission, 
Narragansett Bay Commission has been very effective in dealing 
with that.
    We are now at the point where non-point source, general 
runoff, and what comes in from other States, down the 
Blackstone River, down the Taunton River, through the 
Paucantuck Watershed from Connecticut, is having a fairly 
pronounced effect on us. I would love to have you say a few 
words on how the framework for State nutrient reduction process 
that we have been talking about can utilize a watershed 
approach in those instances where you have multi-State 
participation in the watershed, and perhaps the incentives of 
the polluting States are a little bit diminished in terms of 
cleanup, because the effects aren't felt in their waters, they 
are felt in our waters.
    Ms. Stoner. Yes. One of the provisions that is relevant to 
this is the provision in the regulations that actually requires 
standards, and there is also one for permitting in the upstream 
States, to consider the downstream impacts. So because water 
pollution does not know State bounds, and because we want to 
ensure that everyone in the Country can go anywhere in the 
Country and know that it is safe to drink the water and swim in 
the waterways and so forth, the Clean Water Act was set up with 
those balances, with local water quality standards set to 
protect designated uses, but also to protect those of 
downstream States, as you are discussing there.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Senator Cardin. Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    In regard to the numeric standards, Ms. Stoner, you said 
that a lot of States wanted to implement and go that direction, 
that they were easy. I think the reality is that a lot of 
States don't want to go that direction. Because they feel like 
they can do a better job of actually looking, I think as Mr. 
Werkheiser described, all of the different things that affect, 
canopies of trees, you mentioned the other things that can play 
into this. Should they have the ability to decide for 
themselves?
    Ms. Stoner. If I meant to suggest that it is easy to set 
numeric nutrient standards, that is not what I meant. It is 
actually a scientific inquiry that can be complex. But it is 
easier to implement them. So I just wanted to say that.
    And I did want to say that we are, as I mentioned earlier, 
we have a workshop tomorrow on the use of biological assessment 
in State water programs.
    Senator Boozman. Should the States have the right to use 
the narrative approach, which also can work, if they choose to 
do that?
    Ms. Stoner. We are working with States to explore the 
flexibilities that exist in the Clean Water Act.
    Senator Boozman. I understand, but if they decide that they 
want to use the narrative approach, and use the factors that 
Mr. Werkheiser described, which at some point I would like to 
visit about whether or not we are actually doing that as we 
decide numeric standards, but should they have the right under 
the Clean Water Act, if they wish to do that, should they have 
the right to do that?
    Ms. Stoner. Where there----
    Senator Boozman. You talk a lot about collaborating. It 
seems like the collaboration only works as long as the State 
agrees with what you say.
    Ms. Stoner. No, sir, the collaboration works when there is 
a scientific basis and a legal basis for the standard. And as 
long as those criteria are met, then it is approvable and we 
approve it.
    Senator Boozman. So you agree then that the States should 
have the right to not use the numeric standard, but the other?
    Ms. Stoner. We are working on approaches now that would be 
approvable approaches that could use narratives for biological 
assessments.
    Senator Boozman. OK. You talk a lot about collaboration 
with the States. I guess my problem is, if that is true, again, 
it seems like collaboration exists as long as the State does 
what you wish it to do. The reality is that it seems like so 
many people are very upset with the standards that you have 
come out with in regard to the State and the local 
stakeholders. Can you give us some examples of specific things 
that you are trying to do to help with the collaboration?
    Ms. Stoner. You bet. So we are working directly with the 
State of Ohio on a weight of evidence approach right now. We 
approved standards in the State of Wisconsin, phosphorus 
standards there. We are working in Montana, we are working with 
the State there on putting together the record that would be 
necessary to support the variances that were passed by the 
State legislature there. We are working in multiple States, 
Colorado is another one, on a variety of approaches to set 
approvable State standards that would help reduce nutrient 
pollution.
    Senator Boozman. Mr. Werkheiser, in your opinion in regard 
to the method that is used as far as setting a numeric standard 
or using another method, of actually looking at the things that 
you talked about, is it reasonable if a State comes up with a 
plan in that regard to allow them to do that as opposed to just 
saying, you are at .1 or .05 or whatever?
    Mr. Werkheiser. I can answer from a scientific standpoint, 
not a regulatory standpoint. From a scientific standpoint, we 
work with both setting numeric standards and other standards, 
taking into account all those variables that go into an 
effective nutrient reduction strategy. So regardless of how the 
standard is set, we work on the scientific basis on the whole 
range of factors that are relevant.
    Senator Boozman. So it is reasonable, then, for a State to 
go a different direction, and possibly do a better job, as 
opposed to the one size fits all?
    Mr. Werkheiser. From a scientific standpoint, as long as 
you take into take into account all those variables, I think 
that is absolutely right.
    Senator Boozman. So it would be reasonable that in fact you 
can actually do a better job if you took those variables into 
account?
    Mr. Werkheiser. From our standpoint, regardless of what you 
use, and the important thing is taking the variables, whether 
it is a numeric value or a different standard.
    Senator Boozman. Thank you. Thank you, Mr. Chairman.
    Senator Cardin. Thank you.
    Let me if I might introduce into the hearing record a 
report released last week by the USDA's Economic Research 
Service. The report on nitrogen in agricultural systems noted 
that the introduction of large amounts of nitrogen into the 
environment has a number of undesirable impacts on water, 
terrestrial and atmospheric Resources. The report also notes 
that two-thirds of U.S. cropland is not meeting the three 
criteria for good nutrient Management.
    Without objection, that will be included in the Committee 
record.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    
    Senator Cardin. I would also like to point out that it is 
my understanding that there has been a lot of discussion about 
the numeric nutrient standards, that it was the Bush 
administration's EPA and the EPA Inspector General, the 
National Academies of Science and the State EPA nutrient task 
force, led by the Association of States and InterState Water 
Pollution Control Administrators and the Association of State 
Drinking Water Administrators all have highlighted the benefits 
of using a numeric nutrient criteria. I just want to put that 
in for the record.
    Senator Boozman. I think the problem is nobody envisioned 
the numeric numbers that they would come up with. And I don't 
disagree that is also a good way of doing things. But it should 
be that if a State comes up with a plan that makes sense, does 
what Mr. Werkheiser does, addresses all of the different 
functions that are going on, if they come up with that plan, 
they should have the ability to go forward with that as opposed 
to the EPA talking about collaboration. And yet if they come up 
with a plan that they say no, they want a numeric thing, which 
seems to be what we are pushing toward.
    Senator Cardin. I am not so sure there is disagreement on 
that. As I understand it, we will hear from the Florida people 
shortly.
    Senator Boozman. I think we would agree. That is my problem 
with it.
    Senator Cardin. I think we all agree on local flexibility, 
as long as they meet the standards.
    Senator Boozman. Reasonable standards based on science..
    Senator Cardin. Reasonable standards based on science. 
Absolutely. We are in agreement.
    We can adjourn the Committee.
    [Laughter.]
    Senator Cardin. Any other questions?
    Senator Sessions. Ms. Stoner, do you know how many 
agricultural jobs are estimated to be lost in Florida due to 
the EPA's nutrient rules? If you know?
    Ms. Stoner. Again, we have asked the National Academies of 
Sciences to help us evaluate those different cost estimates.
    Senator Sessions. Well, the Department of Agriculture in 
Florida estimates it to be 14,500. When issuing the Florida 
nutrient rule, did you consider the cost associated with that 
implementation?
    Ms. Stoner. Sir, the Florida rule is a science-based rule. 
The implementation is where the costs are considered. And there 
are a variety of flexibilities that will enable Florida to 
figure out how to achieve those standards while protecting jobs 
and reducing costs.
    Senator Sessions. Well, Florida Department of Agriculture 
estimates $900 million and $1.6 billion in annual 
implementation costs just for agricultural land uses. That is a 
lot of money. Alabama's general fund budget is around $2 
billion. This is $1.6 billion. And another study estimated the 
annual implementation costs as between $450 million and $4 
billion.
    So I guess all I am saying to you is at a time of job 
danger in America, we need to consider that as we go forward. I 
would also note that if you take over the management of these 
programs around the Country, it is going to stress your budget, 
even though you have gotten 35 percent increase in 2010. Some 
of that was stimulus and it is not going to be repeated. Your 
baseline budget is up 16 percent in the last couple of years. 
So I would just say that with the budget situation we are in, 
and the economic situation we are in, I doubt the wisdom of 
Washington attempting to take over a situation in a State like 
Florida that has worked real hard to improve its environmental 
productivity and have a reputation for that.
    Thank you, Mr. Chairman.
    Senator Cardin. I don't want to prolong this, I know in the 
next panel we will probably get into the same discussion. It is 
my understanding Florida has missed deadlines, though, that 
were established by the courts. But we will get into that in 
the next panel. I am not sure how aggressive they have been in 
dealing with this.
    Thank you all very much. We appreciate the panel.
    Our second panel, let me introduce them as they come to the 
witness table. We have Andy Buchsbaum, who is the Great Lakes 
Supervisor for the National Wildlife Federation. The 20-person 
staff regional office works with the NWF and other 
organizations in each of our Great Lakes States.
    I am particularly pleased to have a Marylander with us at 
this hearing, Nick Maravell. Mr. Maravell is a Maryland farmer 
and a member of USDA National Organic Standards Board. He has 
farmed organically since 1979. He emphasizes the value added on 
farm processing and direct marketing. Currently he has 170 
acres under cultivation at Nick's Organic Farm in Montgomery 
and Frederick counties. For the past two decades, Mr. Maravell 
has conducted on-farm research through grant programs and in 
cooperation with USDA's Beltsville Agricultural Research 
Center, University of Maryland and the Department of 
Agriculture.
    I will now turn to Senator Inhofe for an introduction.
    Senator Inhofe. Thank you, Mr. Chairman. I am real proud to 
have Shellie Chard-McClary here. She is a 1992 graduate of the 
University of Oklahoma, bachelor's degree in chemical 
engineering and biotechnology. She has 19 years experience 
implementing the Clean Water Act, the Safe Drinking Water Act 
and comparable State statutes and operator certification 
programs. She has served as an officer or on the board of 
directors of organizations including the Water Environmental 
Federation, Association of Clean Water Administrators, 
Association of State Drinking Water Administrators, Groundwater 
Protection Council and many others. She is a lifelong Oklahoman 
who knows, I think, a lot more about it than we do. So we are 
anxious to hear from you.
    I will have to say this, though, Shellie, I will have to 
leave before the conclusion of the second panel. I didn't know 
the first one would take that long. It is great to have you 
here.
    Senator Cardin. Welcome. It is nice to have you here.
    We also have George Hawkins, who is the General Manager of 
the D.C. Water and Sewer Authority, a utility providing 
drinking water delivery and wastewater collection and treatment 
for a population of more than 600,000 in the District of 
Columbia, as well as the millions of people who work in the 
District. D.C. Water also treats wastewater from a population 
of 1.6 million in Maryland's Montgomery and Prince Georges 
Counties, and Virginia's Fairfax and Loudon Counties. We 
appreciate Mr. Hawkins being here.
    We also have Rich Budell. Mr. Budell is Director of the 
Office of Agricultural Water Policy in Florida's Department of 
Agriculture and Consumer Services. The office was established 
to facilitate communications along Federal, State and local 
agencies and the agricultural industry on agricultural water 
issues.
    We welcome all five of you and we appreciate your patience 
through the first panel. With that, we will start with Mr. 
Buchsbaum.

STATEMENT OF ANDY BUCHSBAUM, REGIONAL EXECUTIVE DIRECTOR, GREAT 
  LAKES NATURAL RESOURCES CENTER, NATIONAL WILDLIFE FEDERATION

    Mr. Buchsbaum. Thank you, Chairman Cardin and members of 
the Committee. I am Andy Buchsbaum, Regional Executive Director 
of the National Wildlife Federation's Great Lakes Natural 
Resources Center. Good afternoon.
    I am also the Co-Chair of the Healing Our Waters Great 
Lakes Coalition, which is a coalition of conservation 
organizations 110 members strong devoted to protection and 
restoration of the Great Lakes. NWF also co-chairs other large 
scale restoration efforts like Chesapeake Bay, the Gulf of 
Mexico and America's Great Waters Coalition.
    I really appreciate the opportunity to testify to you here 
today. NWF, this is a very important issue for us and our 4 
million members and supporters and 47 State affiliated 
organizations.
    Nutrient pollution is so important because our members are 
sportsmen and sportswomen. They are birders, they are people 
who love wildlife. And nutrient pollution has caused damage to 
conservation and recreation and their economic opportunities. 
You have already heard from the panel how widespread nutrient 
pollution is, and I am not going to repeat that here. But I do 
want to give you an example in the Great Lakes, because the 
statistics you have heard don't capture the story, as Senator 
Inhofe knows, of what actually happens when you run into an 
algae bloom or a dead zone.
    Today, the National Wildlife Federation issued a report 
that you have in your packet. The report documents that a 
nutrient crisis emerging in the Great Lakes is causing massive 
ecosystem breakdowns. We are seeing, in Lake Erie, for example, 
the largest toxic algae bloom in recorded history, larger than 
when Lake Erie was declared dead in the 1960's. The toxic algae 
that is involved there is called microcystis. It can cause 
death and illness in animals and people. It has been measured 
in Lake Erie at levels 1,000 times higher, 1,000 times higher 
than drinking water standards from the World Health 
Organization.
    We are also seeing algae blooms in Saginaw Bay in Michigan 
and Green Bay in Wisconsin and on the shores of Lake Michigan. 
On the shores of Lake Michigan, the algae there combined with 
invasive species are actually causing botulism outbreaks, 
botulism, which has killed thousands of fish and birds. This 
emerging nutrient crisis is affecting people as well. We work 
closely with charter boat captains throughout the region. One 
is Captain Rick Unger. He is the president of the charter boat 
association for Lake Erie. Captain Unger describes algae that 
goes for miles along the shores of the lakes and extends miles 
out into the lakes. It is up to two feet thick, and Senator 
Inhofe, you can imagine what kind of impact you would have if 
you swam in that. In some places, it looks like green mud.
    This is what Captain Unger says: ``The algae is toxic. 
There are posted warnings: don't drink the water, don't touch 
it, don't swim in it. People are getting sick out on the water. 
Captains have respiratory problems.'
    Captain Unger's business has also been badly affected, as 
you can imagine. Bookings are down, re-bookings are non-
existent. The fish have moved. As he says, when the algae moves 
in, the fish move out. Because his boat has to go much farther 
to catch fish, his business costs are skyrocketing. It is not 
just him, it is all the charter boat captains in Lake Erie. In 
fact, there were 800 such captains last year, this year there 
are only 700. He expects further decline next year.
    Captain Unger finally says, ``There are miles and miles 
where fish can't live. It is turning back into the 1960's, when 
it was called a dead lake.'
    This is just one example, and you have heard others, from 
the Chesapeake to the Gulf, to Long Island Sound. The bottom 
line here is that it is not just fish and fishing, it is also 
the fact that it is ducks and geese and hunting. That is where 
the economics really come in. The American Sportfishing 
Association reports that all told, there are 456 million 
anglers in the Country. They generate $45 billion in revenue. 
But anglers don't fish where fish go missing and they die.
    It is clear that our current management strategies and 
policies are not getting the job done. We are asking Congress 
to recognize that fact, and also to keep your foot on the gas. 
We are not asking for additional regulations or mandates at 
this time. The existing framework is robust enough. For 
example, EPA and the States, as you know, are developing 
nutrient standards, numeric standards in many places, that 
don't have a one size fits all mentality. The numeric standards 
themselves in places like Ohio and Wisconsin vary, depending on 
the watershed, the stream segment and the needs of the near-
shore and the offshore.
    The bottom line is the problems at this scale can only be 
solved with broad partnerships and funding. We ask Congress to 
continue to increase the funding to address these programs, 
particularly the Farm Bill, the SRF, State Revolving Loan Fund, 
Section 319 fund, and of course, the large scale restoration 
efforts like the Great Lakes Restoration Initiative and the 
Chesapeake Bay program.
    Thank you very much, and I would be happy to answer your 
questions.
    [The prepared statement of Mr. Buchsbaum follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    
    Senator Cardin. Thank you very much for your testimony.
    Ms. Chard-McClary.

 STATEMENT OF SHELLIE CHARD-McCLARY, DIVISION DIRECTOR, WATER 
 QUALITY DIVISION, OKLAHOMA DEPARTMENT OF ENVIRONMENTAL QUALITY

    Ms. McClary. Thank you. My name is Shellie Chard-McClary. I 
have 19 years experience implementing both Clean Water Act and 
Safe Drinking Water Act programs in the State of Oklahoma. I 
also have the added task of also working with our operators 
through an operator certification training program in my 
current role as the Water Quality Division Director at DEQ.
    I am also on the board of the Association of Clean Water 
Administrators, who are the voice for the State and interState 
and territories for implementing Clean Water Act programs. 
Today I will be delivering testimony on both behalf of my home 
State of Oklahoma and ACWA.
    In its over 40 years of being in existence, the Clean Water 
Act has allowed us to successfully reduce many sources of 
pollution in our Nation's waters. One of the areas we are 
currently addressing is how to reduce the presence in our 
waters of two pollutants that pose very unique challenges, and 
those are nitrogen and phosphorus, commonly referred to as 
nutrients. Today, our nutrient pollution is a leading cause of 
water quality impairment across the Nation, and it does cause 
adverse impacts on our drinking water sources, the aesthetics 
of the water, our recreational uses and on the aquatic life. 
EPA has a data base that indicates that 21 percent of all water 
bodies are impaired, the impairments are nutrient related. In 
Oklahoma we have 10 streams and 22 lakes that are impaired from 
nutrients.
    The data base also shows that 18 percent of all TMDLs that 
have been completed and approved have been for nutrient related 
issues. In Oklahoma, we have completed three lake TMDLs for 
nutrients and we currently have six others in the works.
    The most important message I would like for the Committee 
to come away with today is that the States are doing something. 
We have a lot of activities, we are addressing these very 
complicated issues. And I will provide more information later.
    First I would like to address why nutrient pollution 
control is so difficult. Our traditional approach is 
identifying a single level that a pollutant is too toxic to the 
environment, and then we set some numeric standard or some 
narrative standard to keep the pollutant below that level. 
There is not really a consistent definitive level which we can 
say that an entire water body or an entire State has too much 
of a nutrient. Nitrogen and phosphorus are widely variable, 
they are naturally occurring. They are necessary components to 
our environment. Just as the amount of calories that a person 
needs to be healthy depends on height, weight, activity level, 
the amount of nutrients needed in a water body varies.
    The extent to which a nutrient's adverse effects on 
drinking water, taste and odor problems, we have extreme cases 
of fish kills, the extent to which it occurs in a water body 
depends upon a wide range of critical factors that include 
sunlight, the optimum stream, substrate stream flows, 
temperatures and the backgroundwater chemistry. These factors 
are site-specific. Therefore, States have found that nutrient 
levels that may cause impairment in one stream or one set of 
conditions may not have the same negative impact.
    A single number for nitrogen or phosphorus is not often an 
accurate indicator of adverse ecological or water quality 
effects. We have to look at other factors, such as biology and 
develop with EPA a flexible approach in controlling nutrients. 
In fact, there is a meeting tomorrow, as you have heard, that 
State and EPA will be meeting together to hopefully work out 
some approach.
    Another complicating factor in addressing nutrients, we 
only have the authority over point sources and not those non-
point sources. Due to the variation in natural systems, 
nutrient control and Management call for a wide range of 
solutions. States are using a wide variety of tools. We are 
looking at numeric standards, narrative standards, total 
maximum daily loads, best management practices and looking at 
other parameters, such as chlorophyll A, looking at sediment 
and trying other innovative approaches.
    We understand that EPA may see it as an opportunity of a 
one size fits all standard. We don't see that this causes us to 
have the greatest impacts. W hen we look at what Oklahoma has 
been able to do through work with our water Resources board, 
setting both narrative standards and specific numeric standards 
for certain stream bodies, we have seen successes. We also have 
seen success through our non-point source program, through our 
conservation commission, where we have seen 60 to 70 percent 
reductions in our nutrient pollution.
    We have heard a lot about Senator Inhofe's experience, so I 
won't go into that except to say we know we haven't made it all 
the way. We have been very successful in making reductions 
through our point sources and through our non-point source 
program. But we know we are not there yet, and we are working 
toward being successful.
    Thank you very much for this opportunity to be here before 
you today and I would be happy to answer any questions that you 
all may have.
    [The prepared statement of Ms. Chard-McClary follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Cardin. Before Senator Inhofe leaves, I am sure 
that you had made special note of that one lake, and you will 
do some work there.
    Ms. Chard-McClary. We have done quite a bit of monitoring 
work. We have over 250 monitoring sites. We are working with 
about seven lakes that as of today are still showing 
impairment. But it is an ongoing process with our State and 
local partners. We also have worked very closely with several 
of our Federal partners.
    But we hope to maintain a partnership.
    Senator Cardin. Thank you.
    Mr. Maravell.

   STATEMENT OF NICK MARAVELL, MARYLAND CROP, LIVESTOCK AND 
                        VEGETABLE FARMER

    Mr. Maravell. Chairman Cardin, Ranking Member Sessions, 
members of the Subcommittee, I am Nick Maravell, an organic 
farmer for the past 30 years.
    We farm 170 acres in Montgomery and Frederick Counties, 
Maryland, producing livestock, hay, grain and vegetables. Let 
me give a partial list of our practices relative to nutrient 
management. Recycling of on-farm nutrients, fixing nitrogen and 
carbon from the air into the soil, lengthy crop rotations, 
multiple species plantings, including plenty of legumes, winter 
and summer cover crops, intensive rotational livestock grazing, 
no-till planting into standing crops, stubble and perennial 
crops, slow release of nutrients, very minimal use of highly 
water-soluble nutrients and minimum use of off-farm fertility 
inputs.
    We have been able to weather good years and bad due to our 
improving soil quality. We have also led to a better water 
quality through more efficient nutrient use and better nutrient 
holding capacity. We manage our manure to conserve its 
nutrients. We raise all of our feed for our livestock. Our beef 
never leave pasture. Our poultry are moved across our pastures. 
Thus, we manage our livestock so that manure does not 
accumulate in once place, has a chance to decompose quickly and 
surface runoff is readily absorbed into soil covered with 
vegetation.
    We add value to our products by making them organic and 
grass-fed, by selling them directly to the final user, and by 
on-farm processing of our poultry, poultry feed and seed stock. 
Our minimal impact on the environment is a major selling point 
with our customers. Our sales growth averages 10 to 20 percent 
each year, on par with the growth of the $30 billion nationwide 
organic industry. Our farming system lacks characteristics 
often associated with increased risks of nutrient pollution.
    We are not a confined animal feeding operation centralizing 
the accumulation of manure. We do not specialize in primarily 
one type of product. We do not rely primarily upon off-farm 
water soluble fertilizers to supply our nutrients. We do not 
have very large fields with short, 2-year rotations of 
monocultures. We do not produce for a commodity or export 
market, we do not lose the identity of our product as it is 
marketed.
    American agriculture is very varied, and that diversity is 
a tremendous strength that should be preserved. Because there 
is no one model that should apply to all farms, our national 
policy and program should have the flexibility to accommodate 
our legitimate differences. I call this the multiple models 
approach. For example, Congress' Chesapeake Bay Watershed 
Initiative of 2008 is tailored to provide regional nutrient 
pollution reduction. It needs to be expanded to assure farmers 
of the help they need to meet new mandates.
    States need flexibility to work with farmers, particularly 
more latitude to allocate technical assistance funds to have 
maximum impact on reducing nutrient pollution.
    Finally, I will comment on some of the approaches that have 
been most helpful to me. On-farm research and onsite technical 
assistance have been the most successful approach to improving 
our fertility decisions. Market forces that increase the 
farmer's bottom line for providing ecological services are very 
effective. Allowing for some identity preservation of farm 
products provides the ultimate and direct accountability 
between agriculture and our local and regional environmental 
preservation efforts.
    Assistance to plant cover crops is an excellent approach to 
recycling nutrients. States could provide more flexibility in 
such areas planting multiple species, using innovative species, 
setting earlier and later planting dates, and exploring summer 
covers. Assistance to farmers who are responsibly managing 
their soil and nutrients but who want to make further 
improvements is an excellent approach, such as the Conservation 
Stewardship program. Such programs must be sure to cover 
various farm models and levels of accomplishment.
    For farms that do not accumulate large amounts of 
nutrients, particularly manure, the State should allow filing a 
new nutrient management plan once every 5 years with annual 
updates, rather than once every 3 years. I applaud the efforts 
of the Subcommittee to work with family farmers to help them 
remain profitable while increasing their ability to effectively 
manage their nutrients.
    [The prepared statement of Mr. Maravell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Cardin. Thank you very much for your testimony.
    Mr. Hawkins.

 STATEMENT OF GEORGE S. HAWKINS, GENERAL MANAGER, DISTRICT OF 
               COLUMBIA WATER AND SEWER AUTHORITY

    Mr. Hawkins. Subcommittee Chair Cardin, Ranking Member 
Sessions, my name is George Hawkins. I am the General Manager 
of D.C. Water. I am delighted to be here today.
    I want to point out first I am delighted to have D.C. water 
right here at the table. We have been trying to persuade the 
House, on the other side, to give up water bottles, to use our 
water. It is a good way to save money and we deliver you clean, 
fresh water every day.
    I am delighted to be here, Senator Cardin. I don't know if 
you remember the very first event I held in D.C. 5 years ago, 
when I came to run the D.C. Department of Environment, was a 
clean-up grant you helped get for Marvin Gaye Park, for one of 
the tributaries of the Anacostia River. Actually, it was before 
my first day, coming here back to D.C. Delighted to see you 
again.
    I want to say three things today. One, tell you a little 
bit about D.C. Water; two, tell you about the three projects we 
are undertaking to reduce nutrients that at scale dwarf 
anything you have heard; and three, tell you some of the 
lessons we have learned.
    First, about D.C. Water. D.C. Water takes water from the 
Potomac, it is actually a Federal agency that cleans it, where 
75 percent of the water from that agency comes to us, almost 
all of their funding is from D.C. Water ratepayers. We deliver 
that water to you, including what is right here. Once that 
water is used, it comes back down the drain and back to us, we 
cleanse it and it goes back to the Potomac. It is a true 
recycling system of massive scale. Most do not know the scale 
of what authorities like mine do at every municipality around 
the Country.
    To give you a sense, tomorrow morning I will present to our 
board a proposed budget for 2013. Our operating budget is 
$456.8 million for one fiscal year. Our capital budget is $606 
million for one fiscal year. That is $1.1 billion for Fiscal 
Year 2013 for Washington, DC. metropolitan area.
    Many of the people in this room are ratepayers of D.C. 
Water. You have paid a 40 percent rate increase over the last 3 
years, projected 10 percent more for these costs. What are we 
doing with this money?
    The first project is called the Long Term Control Plan. We 
call it Clean Rivers. We will be building tunnels as big as 
this room, from here to the ceiling, 100 feet below your feet 
to capture overflow that otherwise would go to the Anacostia, 
to Rock Creek and the Potomac. Over 3 billion gallons will be 
captured in most calendar years, eliminating overflows from 82 
in the average year to 2. The cost of that project is $2.6 
billion, paid for primarily by D.C. ratepayers.
    The second project is to enhance nitrogen removal. That is 
the next stage for the Chesapeake Bay. The only jurisdiction of 
the six plus the District of Columbia that met the 2000 and 
2010 goals for the Chesapeake Bay was the District of Columbia. 
D.C. met it because D.C. Water met its goals, because we are 
literally the only big discharger in the District of Columbia, 
and we are the largest single discharger in the entire 
Chesapeake Bay.
    To give you a sense of costs, between 1985 and 2000, we 
reduced 5.6 million pounds of nitrogen at the cost of $16 
million. From 2000 to 2010, we reduced an additional 3.5 
million pounds of nitrogen for $100 million. From 2010 to 2015, 
we will reduce another 600,000 pounds of nitrogen for $900 
million, the project we are doing today. So from about 6 
million pounds for $20 million, it is 600,000 pounds for $900 
million. It costs us 45 times more at the margin to reduce 
nutrients from wastewater treatment today than it did 40 years 
ago, because of the success we have engendered. But we are at 
the cost margin.
    The third project is our digester. We are taking the solids 
that we are removing from wastewater, including that from this 
building and every building in the vicinity, including 
Montgomery, Prince George's, Loudon, Fairfax and Arlington in 
Virginia and Maryland to the largest advanced wastewater 
treatment plant in the world, which is Blue Plains. Senator 
Cardin, I think you will visit us next week when we kick off 
the Clean Rivers project. And we are spending $450 million to 
take those solids and to build the largest thermal hydrology 
project in the world, the first in North America, that will 
generate 13 megawatts of clean power, which would permanently 
power 8,000 homes with electricity. That is a project that 
kicked off earlier in the spring.
    That is three projects. What are our messages? First, our 
industry is green. We are often called polluters, but we don't 
generate pollution. This is everybody else's pollution that is 
sent to us that we cleanse on your behalf. And over the last 
four decades, there has been no sector that has done more to 
clean the rivers of this Country than the wastewater treatment 
authorities, or I say Water reclamation authorities.
    Second, we won't win if we continue just focusing on water 
authorities. We are the largest discharger in the Chesapeake 
Bay with a total of 2 percent of the nutrient load. If you add 
zero from Blue Plains, 98 percent would still be there. And 
that is at the cost of $900 million.
    Three, there are very high costs at the margin; $900 
million for 600,000 pounds of nutrients, we are doing the same 
thing, getting tighter and tighter and tighter with higher and 
higher costs.
    The flexibility to trade, which is my fourth point, we can 
figure out flexibility, you can imagine saving our ratepayers, 
which includes most of the people in this room, a significant 
amount of money by reducing the cost, we could trade that money 
to farm fields where reductions could be gained, you could have 
farmers with the revenue stream, we could save our ratepayers. 
And my bet is we reduce the amount of nutrients going into the 
Chesapeake by margins, factors of 10 over what we get from just 
making smaller and smaller reductions.
    And fifth, the jobs in our industry don't go anywhere. 
Senator Sessions, if you asked how many jobs are in our 
industry, I say all of them. You can't open a building, a 
restaurant, a hotel, a manufacturing facility, no enterprise 
can function without the services we deliver. And the 
investment that you make as Federal dollars into projects like 
this, in my judgment, are the best single dollar you will ever 
spend.
    Thank you very kindly.
    [The prepared statement of Mr. Hawkins follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    
    Senator Cardin. Thank you very much for your testimony. We 
appreciate it very much.
    Mr. Budell.

      STATEMENT OF RICHARD J. BUDELL, DIRECTOR, OFFICE OF 
 AGRICULTURAL WATER POLICY, FLORIDA DEPARTMENT OF AGRICULTURE 
                     AND CONSUMER SERVICES

    Mr. Budell. Thank you, Chairman Cardin, Ranking Member 
Sessions. Good afternoon.
    I am not here today to question the existence of nutrient 
pollution problems facing the Nation and the State of Florida. 
We have impacted water bodies in Florida. We are working very 
hard to address them, just like all of the sources are and the 
stakeholders are working together in the Chesapeake, to address 
the issues facing the Bay.
    The question from Florida's perspective today is not 
whether there is a nutrient pollution problem, but whether the 
Federal Government is justified in hand selecting one State in 
the Nation on which to impose Federal regulations. From our 
perspective, that is the bottom line. Florida doesn't view this 
action as a partisan issue. You are correct, Mr. Chairman, the 
story started with EPA under the leadership of the previous 
Administration.
    However, the current Administration continues to embrace 
the previous Administration's decision in Florida while making 
the opposite decision in other States.
    In EPA's own words, ``Florida has developed and implemented 
some of the most progressive nutrient management strategies in 
the Nation.' EPA further recognizes that Florida has collected 
significantly more water quality data than any other State. 
One-third of the entire national water quality data base the 
EPA has originates from the State of Florida.
    Florida was the first State in the Nation to implement 
comprehensive urban stormwater management regulations. Our 
treated wastewater re-use program is a model for the rest of 
the Country. Our agricultural best management practices program 
is a critical component of our overall resource management.
    By targeting our efforts, Florida has made significant 
progress in nutrient reduction. Tampa Bay, Sarasota Bay enjoy 
sea grass populations now not seen since the 1950's. Lake 
Apopka, a freshwater lake, west of Orlando, phosphorus levels 
have been reduced by 56 percent, water clarity increased by 54 
percent.
    Despite these glowing reviews from EPA and Florida's 
demonstrated commitment, EPA, in direct response to litigation 
determined in January 2009 that Florida had not done enough and 
mandated the development of numeric criteria within 1 year. 
Again, as I said, that determination was made under the 
leadership of the previous Administration.
    But when presented with the same circumstances from 
Midwestern States facing similar challenges with nutrient 
pollution as evidenced by the often talked-about dead zone in 
the Gulf of Mexico, EPA's current leadership declined to make 
the same determination. They declined to determine that those 
States needed numeric criteria to deal with the dead zone. That 
left Florida as the lone State in the Nation to face the 
imposition of costly Federal numeric criteria.
    After determining that Florida needed to develop the 
criteria, but before the expiration of the 1-year deadline, EPA 
entered into a settlement agreement with the plaintiffs with no 
notice to Florida whatsoever and agreed to a schedule for 
Federal rule adoption; reneging on the time line contained in 
the original determination and essentially usurping our efforts 
to develop our own standards. EPA finalized those criteria last 
December.
    This takeover of Florida's criteria development process was 
further aggravated by the content of EPA's rule. The methods 
used by EPA to develop its rules are inconsistent with the 
advice of its own science advisory board. EPA compounded the 
situation by improperly applying the methods it did use. As a 
result, in many cases the rule would deem perfectly healthy 
waters impaired in Florida.
    That was just too much for us to deal with. The day after 
EPA finalized those regulations, Florida's attorney general and 
the Commissioner of Agriculture filed a complaint in Federal 
court, challenging the Federal rule. Subsequently, over 30 
additional entities, both public and private, have filed 
complaints in Federal court citing the same shortcomings.
    Florida believes strongly that any nutrient reduction 
strategy should focus on measurable environmental improvement 
while optimizing the use of public dollars and avoiding costs. 
In the preamble to their rule, EPA admits they were unable to 
find a cause and effect relationship between nutrient 
concentration and biological response for flowing waters like 
streams and rivers. In the absence of that cause and effect 
relationship, there can be no guarantee that the high costs 
spent to reduce nutrient concentration in a stream or river 
will result in any measurable improvement in the biological 
condition of that stream or river.
    It is important to recognize, as Shellie said, that 
nitrogen and phosphorus are naturally occurring. They are 
necessary for the normal biological productivity that occurs in 
every water body. Determining when too much is present, that is 
the difficult goal.
    Florida believes it is very important to link nutrient 
concentration with an assessment of biological health of the 
water body before requiring the implementation of costly 
nutrient reduction strategies. Without this linkage, 
implementation of the EPA criteria would have Florida 
businesses, wastewater and stormwater, utility ratepayers, and 
food producers spending time and money attempting to reduce 
nutrient concentrations in some cases to levels below natural 
background.
    Because so many other factors affect nitrogen and how it 
cycles in the ecosystem and phosphorus, Florida believes the 
standards are best determined on a site-specific basis.
    Inclosing, Florida believes that Florida is best positioned 
to assess the health of its waters and associated water quality 
criteria for their protection and restoration. We believe that 
our track record for the implementation of progressive and 
successful programs is second to none. In fact, we have 
developed nutrient rules that address all of the shortcomings 
of EPA's rule and avoid unnecessary costs, and complete the 
tasks that the State originally set out to accomplish before 
Federal intervention.
    Florida is poised to adopt its own numeric criteria if only 
EPA would cease Federal rulemaking. These dual rulemaking 
activities in Florida serve no public good, create intense 
legal and political conflict and significantly hamper 
environmental protection and restoration efforts. Florida has 
earned the right to exercise the authority envisioned by the 
Clean Water Act to develop its own water quality standards and 
implement them through an EPA-approved and predictable process 
governed by existing State law.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Mr. Budell follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
   
    
    Senator Cardin. Let me thank all five of you. I thought 
this panel was extremely helpful. I thank you for your 
testimony, and I said before, thank you for your patience.
    Mr. Buchsbaum, your numbers on the anglers I found to be 
very impressive. I would ask that whatever documentation you 
have of the potential economic damage to our communities as a 
result of nutrient pollution, I think it would be helpful. I 
know in the Chesapeake Bay how important the recreational and 
charter industries are for our economy. And I don't know if 
there are any reports we have that demonstrate the economic 
losses. But if you have information on that, I think it would 
be very helpful for us to get it.
    Mr. Buchsbaum. We would be happy to supply that. Of course, 
the information we have our charter boat captain, we have lost 
100 jobs already in Lake Erie, at least, and more to follow.
    Senator Cardin. That is sad. But it is important that we 
understand, this is not just about public health issues, it 
really has a direct economic impact.
    Mr. Buchsbaum. We will provide more information.
    Senator Cardin. Jobs are our key point right now.
    Ms. Chard-McClary, I appreciate your testimony. I 
appreciated your giving me one more example of Oklahoma that I 
can at least relate to. We had the same discussion on fracking.
    But the TMDLs seem to be working well in your State, from 
your testimony. As you point out, it is individually 
determined. So it is a tool that is used locally to help you 
deal with your issues. I liked your idea of too many calories. 
We all like calories, we all need calories. But when we have 
too many, it causes a problem. And the TMDLs is a pollution 
diet, that is exactly what it is. And it seems to be an 
effective tool. But again, it needs to be tailored to the 
individual circumstance.
    Although the one in the Chesapeake Bay has gotten a lot of 
attention, there are literally thousands of TMDLs that are 
working around our Nation that are all used in a way to deal 
with the local circumstances.
    Mr. Maravell, I must tell you, I found your testimony to be 
extremely exciting. The number of tools that you have used, the 
number of methods that you have used in order to manage the 
ENVIRONMENTAL risks of farming I found to be very encouraging. 
You understand that it is not going to be one simple method to 
deal with the challenges you have as a farmer.
    My question for you is this. You rightly so have developed 
a market. I think a lot of consumers want to support your type 
of activities. They are willing to go out of their way to 
support products that are produced in an organic manner, 
because we want to participate. Is there a cost that you pay on 
competition because of the way that you are farming that, if it 
were not for people wanting to buy organic, it could cause you 
a competitive problem in selling your products?
    Mr. Maravell. This is a question that comes up quite 
frequently. What we do is, we don't try to maximize our returns 
in any 1 year. We try to optimize them over the years, which is 
why our farming system is a little bit resilient in many 
different ways. One of the ways is, you have the vagaries of 
weather, but we also have the vagaries of circumstances in 
foreign lands and other things that raise the cost of 
petroleum, for example. We rely less on that for our nutrients, 
basically not at all. So there are some years where we make out 
a little bit better and other years where we don't. The 
research has shown that generally speaking, in drier years, the 
type of systems that I employ are going to do better. I can 
tell you that when there is drought assistance relief programs 
in our county, I can never qualify, because in the dry years, 
my average yields are above the county averages.
    The other thing I will point out is that some of our 
products would be considered to be priced a little bit higher 
than comparable products not produced with organic methods. And 
some of my products are marketed very competitively, and might 
even be considered below conventional. You say, well, how does 
that happen? Well, again, it is the vagaries of the 
marketplace, a little bit. But it is having the connection to 
the consumer Having that direct farmer to consumer connection 
allows certain efficiencies to come about. And because we 
market a variety of different products, we are able to cross-
sel those products to people who come out to the farm, and as 
you say, want to support and want to participate in the type of 
farming that we do, and who want to enjoy the benefits of the 
Chesapeake Bay at the same time.
    Senator Cardin. Farming is, someone has to have a real 
motivation to be a farmer today. It is not easy. And there is 
satisfaction with what you do with the land. It seems to me you 
must have an increased level of satisfaction, knowing that you 
are not only producing a great product for the market, but you 
are doing it in a way that will help our future. Thank you for 
doing it. I appreciate it.
    Mr. Hawkins, just quickly if I might, very impressive 
testimony. The type of investments you have made are 
incredible, what you have been able to do. Thank you for the 
water, I drink it every day when I come to Washington. I 
appreciate that. And thank you for what you do under a very 
difficult environment.
    But you raise a very interesting point. I want to get back 
to the nutrient trading program one more time. We need to reach 
certain levels to get that marginal savings through the 
improvements to the way you treat waste. It is very expensive. 
Whereas if we could use some of the practices that Mr. Maravell 
uses, it is a lot less expensive, and municipalities are 
willing to, I would think, buy nutrient credits so that extra 
marginal $900 million cost, some of that can be saved and Mr. 
Maravell would like to have some of that money in his pocket 
for perhaps using seasonal crops.
    Mr. Hawkins. I think you can't help but look at the 
numbers. When my compatriot from the Department of Agriculture 
mentioned in the prior panel that there were $20 million 
committed in the Chesapeake Bay, a six-State area, that is a 
significant number. But just compare it to the $900 million 
that we will spend to reduce 600,000 pounds of nutrients. I 
don't think there is any question that you could spend $900 
million a lot better than making our plant at the margin that 
much better, except, this is what we have always done. We know 
how to do it, we know where the regulation, where the point 
source, I hope you will come visit, Senator Sessions. We would 
love to have you. I guarantee you would be fascinated to see 
the scale of it.
    But the notion that you could trade and get reductions 
where we know the larger sources are at lower cost, and achieve 
a better outcome, and save urban ratepayers who are facing 
these skyrocketing bills all at the same time, it is an outcome 
that only has good potential. So I encourage, I know you have, 
and I encourage you to keep at it.
    Senator Cardin. It is clearly a win-win situation. I would 
hope that we could move, we think there is some authority 
within the agency to do this today. We have encouraged them to 
do it. But if they need extra help from Congress, I would hope 
that is one area that we could move forward on.
    Senator Sessions. Thank you. Very interesting panel, and I 
am glad we have an expert witness here. I don't know if you are 
under oath, but this water is safe to drink and the taxpayers 
don't need to buying bottled water for the people in 
Washington.
    Mr. Hawkins. Hear, hear. You are exactly right. Thank you.
    Senator Sessions. I think you are correct, and I agree with 
you on that.
    Plus, in plastic, I always thought it rather odd that the 
people who attack the high price of gasoline were perfectly 
willing to go into a gas station and buy a bottle of water that 
cost about three times as much as gasoline costs per ounce.
    Well, Mr. Buchsbaum, in your report you gave us, it 
indicated that Lake Erie phosphorus loads in this chart are 
slightly below the agreement target load, and yet you still 
have this kind of algae growth. Do you attribute the algae to 
phosphorus levels or multiple factors?
    Mr. Buchsbaum. Definitely multiple factors. But definitely 
phosphorus levels. The phosphorus loads vary, so sometimes they 
are up, sometimes they are down. The key statistic isn't in 
that chart, it is in another chart in the report, which 
indicates that soluble reactive phosphorus, that is the 
phosphorus that is actually most available to biological 
growth, that has been in a steady increase for the last few 
years. And it is that phosphorus which is actually the thing 
that is causing the most of the algae blooms.
    There are other factors involved. The temperature of the 
lake is higher. You also have invasive mussels that are messing 
up the system a bit. But in fact, it is the soluble reactive 
phosphorus. That is still unclear exactly where that comes 
from. But they believe it is a combination of, well, there are 
some biological interactions that are increasing it.
    But it is also certain farming practices that were 
encouraged for conservation practices, including no-till. It 
looks like we may need to make some slight adjustments to 
those. Because the longer that the phosphorus is left in the 
soil, the more it binds with the soil. So then when you have 
soil washing in, we are having larger storms, so as the larger 
storms wash the soil into the rivers and then that is carried 
out into Lake Erie. That soil includes soluble reactive 
phosphorus at levels we didn't have before.
    Senator Sessions. I think these are complex issues, and I 
do think science can help us best address how to confront them.
    Mr. Budell, I was, as a former attorney general of Alabama, 
and a former United States attorney in litigation for the 
United States, I was a bit taken aback that you were not 
consulted when EPA settled what was, I assume, a Federal 
lawsuit over pollution? Is that where the agreement arose?
    Mr. Budell. Florida was not a party to the lawsuit.
    Senator Sessions. Right.
    Mr. Budell. It was a lawsuit from private ENVIRONMENTAL 
community with EPA.
    Senator Sessions. But you were taking a lead in controlling 
nutrient levels, and emissions into the waters, and this 
lawsuit dealt with that issue, is that correct?
    Mr. Budell. That is correct.
    Senator Sessions. And as a matter of courtesy and 
propriety, you felt like, if not legality, that you should have 
been consulted in this process?
    Mr. Budell. It would have been an indication of the 
cooperative nature of working together with EPA to develop 
numeric criteria to have been consulted in a consent decree, 
yes.
    Senator Sessions. Well, I have been involved, and I have 
seen litigation that occurs when people are kind of proud, too 
quick to settle a lawsuit because they think the court is going 
to tell them to do what they would like to do anyway. So at any 
rate, EPA is able to negotiate a settlement that bound you, and 
you were not able, you were not asked to participate, and I 
don't think that is good Federal-State cooperation, frankly.
    Now, you are still waiting on an answer concerning the 
petition that Florida has made to the EPA to withdraw its 
nutrient rule? You have not gotten a formal answer yet?
    Mr. Budell. That is correct. The letter that was in 
response to the petition that was sent to EPA in April was 
really a non-response. It was as Ms. Stoner described it, it 
was, they are still evaluating, they are encouraging Florida to 
move forward with the numeric rule, numeric criteria 
development. But they have not decided yet whether they are 
going to withdraw their rule or not.
    Senator Sessions. Are you confident that the EPA has used 
the best available science in its nutrient rulemaking process?
    Mr. Budell. No.
    Senator Sessions. Explain your concerns about that. I think 
you are entitled to express them.
    Mr. Budell. As I stated in my comments, what we believe 
should be the approach that is appropriate and provides States 
with the flexibility and does build onto good science is to use 
numeric criteria as a guideline, as a screening tool to 
evaluate the heath of water bodies. But you must pair that 
numeric criteria with the biological assessment to look at the 
ecology of the water body itself, to see if it is healthy. If 
it supports a healthy population of flora and fauna but exceeds 
the numeric criteria by a tenth of a part per million or two-
tenths or three-tenths or four-tenths, does it really make 
sense to spend money and time and resources to control the 
nutrient concentration when the biology is perfectly healthy? 
We think not. We think that is a flexible tool to target your 
resources to water bodies that are truly biologically impaired, 
where you can focus those efforts and gain the maximum amount 
of benefit for the least amount of money, optimizing the public 
dollars that are available for this kind of a project.
    Senator Sessions. Well, and just for the record, you in the 
State of Florida, attempts, I assume every day, to utilize the 
Resources you have to get the maximum benefit to the waters of 
your State. Is that correct? And you make decisions that you 
think maximize, considering some of the factors Mr. Hawkins 
referred to, to get the maximum positive impact from your 
efforts that you expend, is that correct?
    Mr. Budell. That is correct, we do that every day.
    Senator Sessions. And I guess it is your concern that the 
ENVIRONMENTAL Protection Agency, through its more numerical 
system, will not direct the resources most effectively?
    Mr. Budell. The situation that we are facing now is that to 
date, we have proposed to develop a numeric nutrient criteria 
model in Florida that couples nutrient criteria guidelines, 
numeric guidelines with an assessment of the biological health 
of the water body. And to date, that proposal has been rejected 
by EPA.
    Senator Sessions. Thank you, Mr. Chairman. You have been 
very kind. I am late to another meeting, and I just want to 
express my appreciation again to the panel members. We 
appreciate your written testimony and look forward to working 
together.
    Senator Cardin. Senator Sessions, I appreciate very much 
your active participation here. This hearing has gone longer 
than we had originally scheduled it, and I very much appreciate 
your active participation. This is an area that, I am going to 
ask one more question, but it will be pretty brief.
    First, Mr. Budell, let me point out that I hope that 
Florida and EPA can work this out. I heard today from EPA that 
they want to sit down, they are trying to, they believe that 
there isn't as much division and they hope that they will be 
able to reconcile the issues because they want local control. 
That is EPA's preference on these issues.
    And I come to this, and I will give you a chance when I 
finish my comments, I come to this knowing full well that many 
of the standards developed by EPA are the same or even less 
stringent than the standards proposed by the State of Florida 
in the fall of 2008. Then when the EPA issued its numeric 
nutrient water quality criteria in January 2009, it included a 
statement from Deputy Secretary Michael Sole from the State of 
Florida recognizes that more needs to be done to address 
nutrient pollution in our rivers, streams, lakes and estuaries. 
These actions will help our State and all our stakeholders 
prevent and better manage sources of nitrogen and phosphorus 
from entering our waters.
    That was included, that quote from Michael Sole was 
included in the release when numeric standards were announced 
by the Environmental Protection Agency. So it seems to me in 
2009 we were pretty close together and something has happened 
since that date that has created a problem. I am going to ask 
unanimous consent, without objection, to include in the record 
the full copy of the release of January 16th, 2009, and several 
editorials from the Orlando Sentinel, from Florida Today and 
from the St. Petersburg Times, relative to this subject matter.
    [The referenced information was not received at time of 
print.]
    Senator Cardin. Also complimentary of the use of the tools 
and numeric standards for dealing with the nutrient problems of 
Florida waters.
    I put that all in context, because it is our hope that 
Florida would work with EPA. And I know it takes two sides to 
do it, believe me, I do. And work out a way that we achieve the 
results that I think both Florida and EPA would like to see 
achieved in a manner which gives comfort to the State that we 
are proceeding in the most cost-effective way based upon good 
science to bring down the nutrient problems of our waters in 
Florida. If you would like to respond, that is fine.
    Mr. Budell. Briefly. Only to say that we too want to work 
out an agreement with EPA. We want to propose to them criteria 
that they can approve. We think the best way to do that is to 
bundle the numeric guidance number with the biological 
assessment of the water body to help us determine which water 
bodies are truly impaired.
    You have heard Ms. Chard-McClary talk about the variability 
from water body to water body, nutrient concentration in one 
water body causes an impairment, and in an adjacent water body, 
it may not. They are very site-specific. And we believe that in 
order to use those criteria as screening tools, you must couple 
it with a biological assessment of the water body before you 
determine that a Water body actually has to have nutrient 
reduction measures employed.
    We don't doubt that numeric criteria are a tool that can be 
used to help us screen water bodies for impairment. But they 
don't necessarily equate to impairment. And meeting the number 
just to meet the number oftentimes is a waste of money.
    Senator Cardin. I think I understand your point. And I take 
it that was known in 2009, and I understand your position 
today. I really do. So I think this is an area that I hope will 
be resolved. I think we all understand the dangers of nutrient 
pollution and the need for aggressive action. And we absolutely 
need the cooperation of our States working with all partners, 
including the EPA.
    Again, I found this panel to be extremely interesting and 
helpful. I really do applaud the efforts being made by you all 
to try to improve the nutrient issues. From our neighbors here 
in the District, I must tell you, the District has been one of 
the strongest partners on the Chesapeake Bay partnership. We do 
applaud, from the very beginning, the District has been one of 
the leading partners in taking responsibility for the 
Chesapeake watershed. Obviously the challenges you have at Blue 
Plains is a significant part of that issue.
    Mr. Maravell, just one more time, I appreciate a Marylander 
being here. And what you are doing as far as leading on not 
only an efficient farming operation but a green farming 
operation is certainly encouraging.
    To all of you, thank you very much for being here. With 
that, the committee will stand adjourned.
    [Whereupon, at 4:39 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
    
    
                                 <all>
</pre></body></html>
